<html>
<title> - TRANSPORTATION SECURITY ADMINISTRATION'S OFFICE OF INTELLIGENCE: PROGRESS AND CHALLENGES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                        TRANSPORTATION SECURITY
    ADMINISTRATION'S OFFICE OF INTELLIGENCE: PROGRESS AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
           INFORMATION SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2006

                               __________

                           Serial No. 109-83

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________





                    U.S. GOVERNMENT PRINTING OFFICE

32-739                     WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Rob Simmons, a Representative in Congress For the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress For the 
  State of California and Ranking Member, Subcommittee on 
  Intelligence, Informaton Sharing, and Terrorism Risk Assessment     2
The Honorable Jim Gibbons, a Representative in Congress For the 
  State of Nevada................................................    16
The Honorable James R. Langevin, a Representative in Congress For 
  the State of Rhode Island......................................    14
The Honorable Nita M. Lowey, a Representative in Congress For the 
  State of New York..............................................    12
The Honorable Stevan Pearce, a Representative in Congress For the 
  State of New Mexico............................................    18

                               WITNESSES

William Gaches, Assistant Administrator for Intelligence, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Cathleen A. Berrick, Director, Homeland Security and Justice, 
  U.S.Government Accountability Office:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

















 
                        TRANSPORTATION SECURITY
    ADMINISTRATION'S OFFICE OF INTELLIGENCE: PROGRESS AND CHALLENGES

                              ----------                              


                        Wednesday, June 14, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:40 p.m., in 
Room 311, Cannon House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Gibbons, Pearce, Lofgren, 
Lowey and Langevin.
    Mr. Simmons. The quorum being present, the Committee on 
Homeland Security, Subcommittee on Intelligence, Information 
Sharing, and Terrorism Risk Assessment will come to order. 
Today the subcommittee meets to hear testimony on the 
Transportation Security Administration's Office of Intelligence 
and its integration within the DHS intelligence enterprise.
    We will be hearing testimony from two witnesses today. Our 
first panel, we will be hearing from Mr. William B. Gaches, 
TSA's Assistant Administrator for Intelligence. Welcome, Bill. 
Good to have you here.
    And our second panel, we will hear from Ms. Cathleen 
Berrick, Director of Homeland Security and Justice, U.S. 
Government Accountability Office.
    I thank Mr. Gaches for being here this morning, and I also 
want to thank you for hosting our visit to your facility on 
Monday. The tour provided the subcommittee with insight for a 
look at how your office carries out its mission to identify, 
deter, and mitigate threats against our Nation's transportation 
infrastructure. And I look forward to continuing the discussion 
that we began on your role in protecting our Nation.
    I also look forward to hearing from you today on the roles 
and responsibilities of the TSA Office of Intelligence and its 
role in the DHS intelligence enterprise. TSA's Office of 
Intelligence was created to mitigate the risk of terrorism 
against aviation. Formed in the wake of the 1988 Pan Am Flight 
103 bombing over Lockerbie, the legacy Federal Aviation 
Administration's Office of Civil Aviation Security Intelligence 
was eventually transformed into a 24/7 operation during the 
Gulf War. However, the fate of the FAA's Intelligence Office 
was tragically changed on September 11, 2001.
    Given these events, I found it very interesting and 
encouraging that one of the mantras of personnel from TSA's 
Office of Intelligence is, and I quote, zero tolerance for 
failure; no successful attacks against U.S. transportation 
based on failure by TSA intelligence to warn or inform.
    The culture of TSA intelligence is emblematic of DHS 
itself. It is a culture of men and women that readily accept 
the responsibility to protect our Nation against the threat of 
terrorism. When I visited the office on Monday, I met a 
gentleman who worked for you, and I asked him why he chose TSA 
instead of the more traditional intelligence agencies like CIA 
or FBI, and he told me, and I quote, because here I am 
defending the homeland, unquote.
    The good men and women that work in intelligence at TSA 
work hard every day to defend us against attack. That work is 
important. We must ensure as a Congress and as a government 
that they have the tools and policies in place to get the job 
done.
    I would now like to recognize the Ranking Member of the 
subcommittee Ms. Lofgren for any statement she may have.
    Ms. Lofgren. I am pleased we are turning our attention 
today to the Transportation Security Administration's Office of 
Intelligence. The Department's Chief Intelligence Officer 
Charlie Allen recently testified before us about one of his key 
goals making all the Departments' intelligence offices work 
together. Put simply, Mr. Allen wants intelligence folks and 
TCB and to be on the same sheet of music when it comes to the 
intelligence agenda. To get there he needs the various 
intelligence offices falling under his leadership to share 
information with each other and to draw on each other's 
expertise in order to produce unique intelligence products, 
products that advise the Department's State, local, tribal, and 
private sector partners about what steps to take to protect 
people and property from terrorist attacks.
    I therefore welcome the testimony here today and look 
forward to Mr. Gaches' testimony about the work he is doing. I 
look forward to asking both witnesses about the practical 
impact that TSA's intelligence shop has on everyday Americans. 
Specifically, I am interested with TSA's ongoing involvement 
and its impact on TSA's Secure Flight program.
    Most Americans are well aware of news stories about senior 
citizens, babies, nuns and even Members of Congress being 
stopped at airports because they share the same or similar name 
as a terrorist on a watch list. In fact, a member of my own 
family is routinely stopped by certain airlines whenever he 
flies. I understand that TSA intelligence analysts are 
stationed at the Terrorist Screening Center at this very moment 
and are assisting in the monumental task of manually reviewing 
the tens of thousands of names included on the watch list based 
upon information we have recently received from the Department 
of Justice's inspector general. However, this manual review 
process will take 5 or 6 years to complete. We simply don't 
have 5 or 6 years to read through records to get the data 
right.
    A similar data problem apparently plagues TSA's planned 
Secure Flight program. Ms. Berrick testified this past February 
the program, as presently envisioned, will rely upon the 
Terrorist Screening Center's terrorist watch list to conduct 
automatic name checks to see if a passenger with an airline 
reservation is a terrorist or not. If the records on the watch 
list are inaccurate or incomplete, TSA's intelligence analysts 
along with their colleagues at the Terrorist Screening Center 
will have to perform a manual review of passenger records on 
sometimes very short time frames in order to see if they can 
figure out who is who. The same manual review will be needed if 
the airlines that submit passenger information to secure 
flights somehow muck up the data during the reservations 
process. Not only will this lead to delays, but I fear it won't 
protect us. Terrorists could game the Secure Flight system and 
also the current watch system.
    As Ms. Berrick states in her prepared testimony today, 
Secure Flight was not designed to protect people using stolen 
identities from boarding airplanes. Given the millions of 
veterans' records recently stolen from the Department of 
Veterans Affairs complete with names, dates of birth and Social 
Security numbers, this vulnerability is a particularly serious 
one. Now that TSA has announced that its going back to the 
drawing board on Secure Flight, it might make sense to figure 
out how to address the identity theft problem as well as the 
inadequacy of name checks before getting too far ahead of 
itself. I therefore look forward to Mr. Gaches' comments not 
only about the work he is doing to stand up TSA's Office of 
Intelligence, but also how he is gearing it up to prepare for 
Secure Flight and to address the problems that Ms. Berrick and 
others at GAO have identified.
    Welcome to you both, and I yield back, Mr. Chairman. Thank 
you.
    Mr. Simmons. Thank you very much. And as the other members 
of the subcommittee know, they have an opportunity to insert 
any opening statement for the record that they may wish to 
insert.
    Mr. Simmons. And it is a pleasure to have the distinguished 
gentlewoman from New York here with us this afternoon.
    Our first witness will be William Gaches, who is the 
Assistant Administrator for Intelligence, Director of 
Intelligence and Analysis, Transportation Security 
Administration. He assumed this responsibility in February of 
2006 and is the senior intelligence officer for the 
Transportation Security Administration.
    From the year 2003 to 2004, Mr. Gaches headed the DCI's 
Terrorist Threat Integration Center, Analysis and Production 
Department, and was responsible for managing and overseeing all 
of TTIC's publication and analysis efforts. He is a 30-year 
veteran of the National Security Agency, has earned his BA in 
political science from Westminster College, received a master 
of liberal arts from Johns Hopkins University, and advanced 
certificate in American public policy from the University of 
Maryland in Baltimore. It is good to have you here.
    We will put a 5 minute light on. We have your full 
testimony, so you don't have to read it. And if you wish to 
summarize in 5 minutes, we look forward to hearing your 
testimony.

   STATEMENT OF WILLIAM GACHES, ASSISTANT ADMINISTRATOR FOR 
  INTELLIGENCE, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Gaches. Thank you, Mr. Chairman, Ranking Member 
Lofgren, for the kind opening comments. Members of the 
subcommittee, thank you for this time. It is an opportunity to 
talk to you about the Office of Intelligence at the 
Transportation Security Administration, our mission, our 
capabilities and some thoughts about how we use intelligence to 
help secure the transportation networks of America.
    As I have not appeared as a witness before this 
subcommittee prior to today, allow me to a little bit more 
formally introduce myself. As Chairman Simmons said, I arrived 
at TSA in February of 2006. For over 31 years I served at home 
and abroad as an officer of the National Security Agency, 
including being the NSA production manager for counterterrorism 
from 2000 to 2003.
    In 2003, as Chairman Simmons pointed out, I was indeed 
asked to be one of the founding leaders of the President's 
Terrorism Threat Integration Center, or TTIC, which later 
became the National Counterterrorism Center, or NCTC, and in 
this 2003 to 2006 timeframe, I did, in fact, run the analytic 
element of those organizations.
    Along the way I became committed to the concept of team 
play, and also I became a colleague and, I dare say, a friend 
of Charlie Allen, DHS's Chief Intelligence Officer. As I 
headed, I thought, from NCTC back to NSA, Charlie Allen asked 
me if I would be interested in helping TSA improve their 
intelligence department. For me, a guy who wished to be a pilot 
in younger years and a college-age summer hire of a national 
airline, this would be too good an opportunity to pass up, 
action-oriented intelligence work coupled with transportation.
    Administrator Hawley and I met, and by early February I was 
an assignee at TSA headquarters, but my commitment to TSA has 
steadily grown since that time, and on Friday, 12 May, I 
resigned from NSA and the following Monday came back to work as 
a TSA officer.
    The mission of the TSA Office of Intelligence is, in fact, 
formally outlined in the Aviation and Transportation Security 
Act of 2001 and, in short, directs TSA to receive, assess and 
distribute intelligence information related to transportation 
security. This dynamic, multifaceted effort by TSA must be done 
in concert with the efforts of the DHS's Chief Intelligence 
Officer, his staff and DHS's other component intel shops. We 
cannot operate so independent as to preclude coordination and 
consultation with and across DHS, and we are, in fact, fully 
committed to the Secretary's objective as stated before the 
full committee this past October by Charlie Allen regarding 
integrating the intelligence elements of the Department, 
creating a unified intelligence culture, and improving the flow 
and reporting of intelligence.
    This architecture building is, in my humble opinion, 
comparable to DOD's joint staff model. We are in the JCS/J2, 
work hand in glove with the J2s of the combatant commanders in 
the field, and each field commander's intel chief has their 
autonomy and their responsibilities, but one of those 
responsibilities is to work in concert with the JCS/J2 back in 
the Pentagon.
    The intelligence office at TSA is comprised of 99 
government personnel and about 40 contractors. We operate on a 
budget of about $21 million, most of which is used to pay for 
salaries, IT support and the critical IT linkage to the field 
and our customers. Organizationally we have three major 
components: a 24-by-7 watch operation at TSA headquarters, as 
well as intelligence officers at TSA's operation center in 
Herndon, Virginia; an analytic effort, which I view as our core 
purpose; and a business management team to help us run right 
and run straight.
    Many of my analysts have prior intelligence and/or law 
enforcement backgrounds either in the military or at agencies 
such as FBI, DIA and CIA. Our products are transportation 
focused, and we strive to issue much at the lowest 
classification level possible, frequently to include 
unclassified reports.
    We have two primary customer sets. First, the major 
transportation industries, aviation, mass transit and rail, 
maritime, cargo, highway, and pipeline; and our second primary 
customer is the operational element of TSA, almost the rest of 
TSA, which includes 150 TSA Federal security directors and 
40,000 transportation security officers, formerly known as 
screeners, supporting 450 federalized airports and associated 
intermodal transportation activities across the country, as 
well as 21 Federal air marshal field offices. Working together, 
we help to operationalize the intel and put it to work to 
secure our transportation networks.
    We also interface daily with and draw upon the U.S. 
Intelligence Community as well as other U.S. Government 
agencies. We consider all forms of intelligence as critical to 
our mission, and we also rely heavily on open-source 
information to include information garnered by the 
transportation industry, and by TSA officers in the field at 
passenger checkpoints, and by TSA's Federal Air Marshal 
Service.
    We are not, nor should we be, construed as experts in all 
things terrorism, but we need to know where to go to get that 
expertise, then operationalize this intelligence and make it 
work for our customers. The intelligence analysts at TSA needs 
to comprehend facets of transportation and simultaneously the 
implications of the intelligence covering terrorists' 
intentions, plans and activities.
    In conclusion, the future for the Office of Intelligence 
will be challenging, as is any Office of Intelligence engaged 
in the global war on terrorism. Our adversary is determined, 
learns from its mistakes and is flexible in many ways. We will 
focus on training our workforce and on continuing to work with 
DHS, the U.S. Intelligence Community, and our customers. This 
is a battle that cannot be won by one agency or even two or 
three. It will take a collaborative and cooperative approach 
across DHS and across the U.S. Government. As the Assistant 
Administrator For Intelligence at TSA, you have my pledge that 
I will do all that I can within authorities in law to ensure 
the safety of the United States' transportation networks.
    Thank you for this opportunity, and I welcome your 
questions.
    Mr. Simmons. I thank you for that testimony.
    [The statement of Mr. Gaches follows:]

                  PREPARED STATEMENT OF WILLIAM GACHES

    Good morning, Chairman Simmons, Ranking Member Lofgren, and members 
of the Subcommittee. Thank you for this opportunity to speak with you 
about the Transportation Security Administration's Office of 
Intelligence (OI) and its crucial role in assuring transportation 
security. OI serves the Assistant Secretary, key TSA staff, TSA field 
elements and a select, specialized set of stakeholders located mainly 
in the transportation sector. As such, its efforts complement and are 
coordinated with the broader mission of the Department of Homeland 
Security (DHS). Today, I would like to address who we are, what we do 
and our ongoing efforts to improve intelligence at TSA.

Our Mission
    The layered approach to security seeks to identify and deter 
threats well before they reach America's airports, railways, highways, 
mass transit, and ports and pipelines. United States government 
agencies work with others around the globe to identify and disrupt 
terrorist activities at their source. U.S. Customs and Border 
Protection activities further identify potential terrorists and bar 
their entry into the United States. Federal, State, and local law 
enforcement work together with the FBI in Joint Terrorism Task Forces 
across the United States to identify and disrupt terrorist activities 
within the country. Intelligence activities are vital to the success of 
this effort and TSA's OI is a key part of the intelligence team.
    Although many of TSA's most visible programs, like aviation 
checkpoint screening, are intended to deter and physically prevent 
terrorists from carrying out a planned attack, the reality is that much 
of what TSA does is focused on stopping terrorists before they launch 
an attack. OI is absolutely critical to that effort because 
information, analyzed and shared, is the very heart of this defense. 
That is why we are working to enhance TSA's role as an information 
resource to support our partners and stakeholders in transportation 
security. Our goal is to make sure that our government and private 
sector partners receive timely information from us and communicate 
directly with us so we can achieve maximum effectiveness in our 
response to terrorism and ideally in its prevention.
    OI is legislatively mandated by the Aviation and Transportation 
Security Act of 2001 (ATSA), further revised by the Homeland Security 
Act of 2002. ATSA directs TSA to receive, assess, and distribute 
intelligence information related to transportation security; assess 
threats to transportation; develop policies, strategies, and plans for 
dealing with threats to transportation security; [and] act as the 
primary liaison for transportation security to the intelligence and law 
enforcement communities. . ."
    OI is the intelligence organization for TSA, providing an organic 
capability to review, synthesize, and analyze transportation specific 
intelligence. It is the only federal intelligence entity focused solely 
on security of the transportation sector. OI coordinates closely and 
shares information with other DHS components, the intelligence and the 
law enforcement community, other government departments and agencies 
such as DOT and FAA, and the transportation industry. To facilitate 
collaboration with the intelligence community and provide rapid 
analysis and notification of threats, this office has placed liaison 
officers with key intelligence community and law enforcement agencies 
across the Federal government.
    OI is critical to TSA's overall risk-based security strategy. Its 
products provide a threat framework to prioritize security resources 
which is regularly used by the Federal Air Marshal Service, Federal 
Security Directors and the transportation industry. The office operates 
and maintains a twenty-four hour a day, seven days a week intelligence 
capability for TSA and, in conjunction with the Transportation Security 
Operations Center (TSOC), disseminates warnings and notifications of 
credible and imminent threats.
    In order to perform its mission, OI provides and maintains the 
information technology (IT) infrastructure for interfacing OI with U.S. 
Government classified networks. It also maintains secure electronic 
connectivity to over 190 TSA field elements via the Remote Access 
Security Program (RASP) that provides the TSA field with access to 
classified information in a timely and secure manner.
    It must be stated that TSA's OI is one part of the team at a 
complex and multi-functional Department of Homeland Security. We are 
fully committed to the Secretary's objective as stated before the full 
committee this past October by Charlie Allen, DHS's Chief Intelligence 
Officer, of integrating the intelligence elements of the Department so 
as to create a unified intelligence culture, improving the flow of 
intelligence information both horizontally and vertically throughout 
the organization, and improving the reporting of intelligence 
information from the Department's operating components and providing 
actionable, relevant analysis back to them.
    The Office of Intelligence consists of two Divisions. The 
Intelligence Watch and Outreach Division functions as a 24/7 watch, 
providing indications and warning information related to transportation 
security while fulfilling vital communication and liaison roles. The 
Current Intelligence and Assessments Division assesses current and 
emerging threats across all modes of transportation and creates 
products that are key to shaping security policy and developing and 
implementing countermeasures.

Intelligence Watch and Outreach
    Our Intelligence Watch and Outreach (IW&O) Division employs a cadre 
of experienced intelligence officers who operate and maintain a 24/7 
intelligence watch capability for TSA. The essential goal of their 
efforts is to identify and assess the credibility of any security 
threat(s) to U.S. transportation, to alert OI and TSA managers and 
staff to these threats, and to support OI, TSA, and other U.S. 
Government organizations in their efforts to deter and prevent credible 
planned or actual attacks against U.S. transportation by providing 
Intelligence indications and warning support and crisis management 
assistance.
    To support this mission, IW&O maintains a full-time liaison officer 
presence at seven key Intelligence Community (IC) and Law Enforcement 
(LE) nodes including DHS's Office of Intelligence and Analysis, the 
Director of National Intelligence's (DNI) National Counter Terrorism 
Center, the FBI's National Joint Terrorism Task Force, Customs and 
Border Protection's National Targeting Center, the National Security 
Agency (NSA), the DEA-administered El Paso Intelligence Center (EPIC) 
Air Watch, and the Terrorist Screening Center (TSC). These liaison 
relationships facilitate the timely analysis and exchange of 
intelligence relating to transportation security and also provide these 
other entities with valuable expertise in transportation security as 
well as real time access to our experts and capabilities in the OI.
    In addition to the Headquarters Watch operation, IW&O also 
maintains an OI office (24/7) at TSA's TSOC. In that capacity, it 
provides direct intelligence support to the TSOC and the Federal Air 
Marshal Service's Mission Operations Center. The office also develops 
and executes all OI field support and Intelligence Operations outreach 
programs.

Current Intelligence and Assessments
    OI's Current Intelligence and Assessments (CI&A) section is a well 
experienced group of intelligence officers whose products and programs 
focus on the terrorist threat to transportation. These professionals 
perform valuable functions in support of daily security readiness and 
long term strategic planning. Among their products are:* The 
Transportation Intelligence Gazette (TIG), Weekly Field Intelligence 
Summary (WFIS), Suspicious Incidents Report (SIR);* Specialized 
analytic assessments focused on terrorist groups, weapons, explosives, 
Chemical, Biological, Radiological, Nuclear, or High-Yield Explosive 
threats (CBRNE), modus operandi, tactics and trends;* Baseline modal 
threat assessments, updated as developing information warrants; and* 
Special reports and other products as needed to support the 
intelligence needs of TSA, DHS, and the intelligence and law 
enforcement community.
    Significantly, CI&A provides intelligence support for other TSA 
Assistant Administrators, notably Transportation Sector Network 
Management (TSNM) and its modal general managers, Security Operations, 
and Law Enforcement/Federal Air Marshal Service. CI&A products assist 
these critical TSA components in assessing risk, to include 
consequence, criticality and vulnerability, and developing appropriate 
security programs, countermeasures, mitigation strategies and 
protection guidance.
    CI&A's focused examination of data to identify new or unrealized 
threats in the transportation domain assists TSA leadership in 
understanding the strategic threat. Analytical products are used in the 
development of security policies and the setting of program priorities. 
Transportation intelligence assessments often serve as the key 
ingredient in shaping Security Directives (SDs) and Emergency 
Amendments (EAs) to stakeholders and support decisions on 
countermeasures. Frequently, CI&A coordinates on issues related to the 
National Infrastructure Protection Program (NIPP), National Strategy 
for Transportation Security (NSTS), National Planning Scenarios, 
Strategic Homeland Infrastructure Risk Assessment (SHIRA), 
Transportation Security Operational Plan (TSOP) and other similar 
programs. CI&A also plays a critical role in the development and 
coordination of interagency security initiatives. The Division's 
Director serves as TSA's technical advisor to the Overseas Security 
Advisory Council (OSAC) of the Department of State and directs TSA's 
Chemical and Biological Task Force, which, in turn, provided 
countermeasures support to the TSA Pandemic Influenza Task Force.
    OI directs TSA's Red Cell activity to identify potential 
vulnerabilities in the transportation system through the use of 
adversarial (terrorist) role playing and scenario development. All 
major offices of TSA participate in the Red Cells, to include TSA field 
personnel, Office of Security Operations, TSNM, OI, Internal Affairs, 
Information Technology, Operational Process and Technology, Office of 
Chief Counsel, and Office of Law Enforcement/Federal Air Marshal 
Service. Red Cell members reflect TSA's broad knowledge, expertise and 
ability to think creatively and outside-the-box. The purpose of the TSA 
Red Cell is to provide TSA leadership with threat scenarios that could 
affect the U.S. transportation infrastructure so that mitigation 
strategies are developed to counter these vulnerabilities. Following 
the presentation of the Red Cell scenarios to TSA senior leadership, 
other TSA offices conduct criticality and consequence analysis, 
determine appropriate counter measures and validate mitigation 
strategies. U.S. transportation sector representatives and industry 
stakeholders are made aware of these Red Cell scenarios which pinpoint 
potential vulnerabilities to the transportation system so that they may 
assist TSA in the development of mitigation strategies.
    In support of transportation stakeholders, CI&A coordinates with 
Information Sharing Analysis Centers (ISACs) to ensure awareness of and 
maintain a baseline understanding of threats to all modes of 
transportation. The Department, working with the Federal Transit 
Administration (FTA), coordinates information and threat sharing for 
rail and transit through the Surface Transportation Information Sharing 
and Analysis Center (ST-ISAC) in partnership with the Association of 
American Railroads (AAR) and the American Public Transportation 
Association (APTA). As part of the significant partnership that has 
developed, TSA hosts ST-ISAC representatives at the TSOC. Similarly, 
CI&A, in coordination with security program officials at DHS, TSA, and 
DOT, shares threat information with highway, trucking, and motor 
carrier stakeholders through the Highway Watch program. The TSOC 
maintains a working area and supporting equipment for this program as 
well.
    Across the critical infrastructure sectors, including 
transportation, DHS is streamlining governmental organizational 
structure and processes to improve coordination and engagement with 
industry stakeholders. Government Coordinating Councils (GCCs) have 
been established to implement the public-private partnership envisioned 
by the National Infrastructure Protection Plan. The Transportation 
Sector GCC formed in January 2006. That council is establishing its 
membership and operating procedures, direct formation of modal GCCs, 
and facilitating outreach to stakeholders to foster development of 
equivalent Sector Coordinating Councils (SCC) for each of the 
transportation modes and the sector as a whole. Membership includes TSA 
as Chair, DHS, Department of Transportation (DOT), Department of 
Defense (DOD), and the Department of Energy. GCCs in each of the modes 
are developing strategies, plans, and initiatives for transportation 
security.
    The intelligence professionals at TSA OI provide essential all-
source, all modal, foreign and domestic transportation threat 
intelligence analysis capability in the United States Government.

The Path Forward
    The spectrum of its transportation security responsibilities, TSA 
seeks opportunities to enhance security posture and activities through 
targeted deployment of resources. In the intelligence field, OI has 
established a Pilot Program to enhance reporting of information 
obtained incidental to law enforcement and security operations, by 
deploying Field Intelligence Officers to a select group of airports 
including Boston, New York (JFK International Airport), Miami, Chicago 
(O'Hare International Airport), Los Angeles (Los Angeles International 
Airport), Phoenix and Dallas Fort Worth. Our goal is to improve 
intelligence support, coordination, and communication between TSA 
Headquarters, our Federal Security Directors (FSDs) and our modal 
stakeholders. After a one year trial, the Pilot Program will be 
evaluated.
    The Field Intelligence Officers will serve as the principal advisor 
to FSDs and their staffs on all intelligence matters. Other 
responsibilities will include developing and maintaining a working 
relationship with local, federal, state, and private entities 
responsible for transportation security, regardless of mode. It is 
important to note here that while our officers will be based at the 
airports, they will still interface with the security elements from the 
local rail, mass transit, highway, and port and pipeline (where 
applicable) modals to facilitate the sharing and exchange of relevant 
threat information among these modals. TSA Field Intelligence Officers 
will gather pertinent law enforcement and intelligence information and 
ensure it is disseminated throughout the National Intelligence 
Community. Law enforcement information will be vetted, validated, and 
formatted as Homeland Intelligence Reports (HIRs) by TSA's Office of 
Intelligence HIR program. Upon approval, the HIRs will be disseminated 
to the Intelligence Community.
    Field Intelligence Officer core competencies will include:* 
delivery of intelligence briefings to FSDs, senior staff, airport 
workforce and partner agencies;* service as intelligence liaisons with 
applicable federal, state, and local intelligence offices;* the 
facilitation of intelligence data sharing from TSA Headquarters via the 
Office of Intelligence; and* submission of field intelligence reports 
to TSA Headquarters via the Office of Intelligence.
    Staffing for the Field Intelligence Officers will rely on highly 
competent and experienced personnel. These officers are expected to 
interact and coordinate with multiple levels of government and non-
government personnel at each site. The Field Intelligence Officers will 
serve as the face of TSA's Office of Intelligence for thousands of TSA 
employees working at the airports.
    Operational support derives from the TSA Assistant Administrator 
for Operations and the FSDs at the seven participating airports. TSA's 
Office of Intelligence has sufficient staffing to support the Pilot 
Program.
Conclusion
    TSA's Office of Intelligence serves a select, specialized community 
of TSA leadership and key stakeholders. Our position within the 
government draws upon the expertise of experienced intelligence 
officers whose focus on the transportation industry provides the 
intelligence and law enforcement communities with valuable resources 
with which to prevent a terrorist attack. By providing an organic 
capability to review, synthesize, and analyze transportation specific 
intelligence, we make an absolutely critical contribution to our 
nation's security which complements the efforts made in the Department 
as well the government as a whole.
    Thank you again for this opportunity to inform the subcommittee of 
our efforts. I would be happy to respond to any questions that you 
might have.

    Mr. Simmons. In my opening statement, I referred to the 
TSA's Office of Intelligence slogan, I guess you could say, 
zero tolerance for failure. You know, air traffic is one of 
those modes of transportation where somebody like myself who is 
inherently scared of flying wants to make sure that the 
takeoff, the flight, and the landing are done 100 percent 
perfectly. We don't want 95 ercent of the takeoffs, the 
flights, and the landings to be successful, you know. That 5 
percent of lack of success is what scares us all when it comes 
to flying.
    And certainly after 9/11, great efforts have been made by 
the U.S. Government and by TSA intelligence to improve the 
security of those flights. But in so doing, we also have to 
balance the privacy issues of the traveling public with 
efficiency issues, the efficiency of getting people through the 
security process and to their aircrafts in a timely fashion so 
that they don't--they don't miss the flight.
    What do you see as the principal challenges of your office, 
of TSA intelligence, and in balancing that security with that 
efficiency'
    Mr. Gaches. The challenges that I see in that particular 
case, Mr. Chairman, would be largely surrounding first and 
foremost, we are concerned about the privacy of the American 
citizen, and as the recipient of the no fly and selectee list 
from the Terrorist Screening Center and the responsible agent 
for forwarding that on to the U.S. airlines in which they do 
the actual matching with oncoming passengers, we work as hard, 
as Ms. Lofgren pointed out, and also in a very manually intense 
system right now to try and ensure the privacy balanced against 
what we know is out there trying to work through our system. 
And it becomes very difficult because, as I pointed out in my 
oral testimony, this is an ever-changing enemy; this is an 
enemy that is becoming increasingly difficult to identify. This 
is an enemy that was not quite what it was in September of 2001 
or before that.
    So this is a constant balancing act between where we are 
trying to preserve the rights and the privacy of American 
citizens while still being able to determine where the bad 
person is, if you will, and how they are trying to get through 
whether it is the aviation or any other transportation system, 
a constant balancing act. A lot of training for our analysts to 
be witting of privacy concerns. It is done on an annual basis. 
So we are trying on many different facets to balance between 
both of those very important tasks for the office.
    Mr. Simmons. And I am sure you have heard of the stories 
about the little baby whose name is Osama bin Laden, or, in my 
case, the treasurer of the Connecticut Education Association 
whose name is Michael Freeman, whose name matches the name of 
somebody else, and when they get slowed down in the process, 
then we have to try to correct those holdings for those 
individuals.
    How efficient and how effective do you feel we have been in 
addressing those issues?
    Mr. Gaches. I think we have made some progress. I think we 
have a long way to go yet, in all honesty. This is a very 
complicated process, in an open hearing and unclassified. I 
know that you all are familiar with the basic tenets of how 
this works, the information that we receive from the TSC, how 
that information is fed to the TSC in the first place. It is a 
process that when you just look at it almost in a flow-chart 
fashion has room, unfortunately, for error just because of the 
complexity and the volume and the variety of the input of the 
information.
    I would certainly welcome you, Mr. Chairman, and Ranking 
Member Lofgren, to TSA for a classified sort of A-to-Z review 
of this process. There are things that I would be perhaps 
incorrect in a public forum to detail about some of the checks 
and balances that we can take, and certainly don't want to give 
those away in an open forum, but would be happy to have all of 
the members of this subcommittee visit us and have members from 
the TSC and from the National Counterterrorism Center and other 
parts of the community have a discussion about this entire 
process. I think you might find that very useful and helpful 
and also answer some of the questions that might be difficult 
to address in an open forum here.
    Mr. Simmons. I appreciate that.
    One final question. We all hear about the exceptions to the 
rule where the wrong person is identified or stopped or 
delayed. Am I correct in assuming that there have been 
instances where the right person or a person who is on a 
terrorist watch list has also been identified and either 
detained or otherwise questioned?
    Mr. Gaches. Absolutely. A very recent and exciting 
adventure that we took part in, actually led a few weeks ago, 
where through other sources we had six individuals, five 
individuals identified on a particular flight, and, in fact, 
they were on that list that we call the no fly List. They were 
bona fide flyers. They had unfortunately gotten onto the flight 
because it was coming from an overseas location, so because we 
knew who they were, we could confirm that. They were greeted 
accordingly and followed accordingly by law enforcement 
agencies to determine what they were up to, et cetera. And, 
again, wouldn't want to go into any further detail, but I would 
say certainly several times a month we are getting positive 
hits on this system.
    Mr. Simmons. Thank you. My time has expired, and I 
recognize the distinguished Ranking Member.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I am wondering, Mr. Gaches, the GAO recently concluded that 
TSA's response to the problems in Secure Flight raise more 
questions really than it answered. And I am wondering, they 
pointed particularly to the accuracy and completeness of the 
records included in the Terrorist Screening Center's master 
terrorist watch list in the database as well as the protocols 
for handling airline reservation information in a way that 
facilitates the TSA-based Secure Flight automated name-checking 
process; and then also the role of TSA OI analysts in ensuring 
that false positive, innocent people are identified and then 
dealt with effectively. Can you address those GAO criticisms 
here in a public session?
    Mr. Gaches. Thank you for that question and the opportunity 
to make a left turn.
    Let me say in all honesty, I am clearly not the Secure 
Flight expert, and, in fact, it is not a direct responsibility 
of the Office of Intelligence. It is a complicated process, as 
you are aware, because of the vast number of inputs and the 
variety of agencies that input to the TSC and eventually in the 
case right today of the no fly and selectee list.
    Certainly the Secure Flight program first and foremost is 
being revamped and built from privacy up to standpoint, and our 
goal is to do it right and not do it fast. And as I think you 
are aware, we are rebaselining that program, and I am sure 
Cathy will have more words to say about that from the GAO 
perspective.
    I think that in the entire--if I may say that in the entire 
war on terrorism, it is difficult to always have precise 
information on the individuals that you are looking for, and 
the details on precise information, that probably should be 
left out of this open hearing. And we would welcome you again 
to go through in a classified session what we use criteriawise, 
why we encounter problems, and some thoughts that we have, and 
perhaps solicit thoughts from you that we should employ in 
making this a better and faster system, because clearly we do 
have room for improvement.
    Ms. Lofgren. I am wondering, you mentioned in your 
testimony that you have information on a daily basis from the 
Intelligence Community. To what extent do you have connectivity 
with the Intelligence Community? What kind of interface do you 
have that permits the full sharing that we expect?
    Mr. Gaches. Thank you for that.
    As I mentioned, I have come out of that Intelligence 
Community. I have accrued a few friends and contacts that will 
still talk to me even in the non-IC status that I now hold.
    As you know, the TSA Office of Intelligence is not one of 
the formal 16 members of the U.S. Intelligence Community. 
Formally, however, let me point out perhaps one of the most 
critical things, even though it sounds somewhat elementary.
    Each morning the Administrator and I start our intel day by 
attending a televised secure videoconference with, I will just 
say, lots of folks talking about lots of things, and it is 
hosted by the National Counterterrorism Center, and Admiral 
Redd, Retired Admiral John Scott Redd, is the host of that. And 
in that forum we have the opportunity to sort of have the 
huddle, have the scorecard check, if you will.
    That doesn't stop at that time. There are other video 
teleconferences then the rest of the 24-hour day involving very 
many of the same organizations, usually different sets of 
players, if you will. That is one of the best ways to keep 
connected. We are an active participant in the Interagency 
Intelligence Agency on Terrorism. We are an active participant 
and supplier, if you will, of liaison officers, who--I will 
just say from various parts of the Intelligence Community, and, 
of course, there is the thing, this network, of just keeping in 
touch with those you used to work with.
    Ms. Lofgren. Well, could I ask just more in a systemic 
way--systematic way, I don't want to denigrate those informal, 
because I am sure those are very important, but I am 
interested, we have accumulated or supposed to have accumulated 
intelligence information, various databases, one of which is 
the customs enforcement arm, Immigration Customs Enforcement. 
To what extent do you have technology that can interface with 
ICE and utilize that database to inform the decisions on the 
terrorist watch list? And can you talk about specifically the 
computer systems and other software programs that you have?
    Mr. Gaches. I apologize. I could not very well address the 
computer systems of the IT connectivity between specifically 
ICE and those databases that are used in the watch list 
process, or even to the Office of Intelligence. That is clearly 
an area that we need to grow our connectivity to CBP, to ICE, 
and the Coast Guard is an area that both my Deputy and I are 
very interested in trying to move forward and bring a closer 
connectivity between the component intel parts of DHS as well 
as to DHS's own IA central activity.
    Ms. Lofgren. I wonder if you could follow up subsequent to 
this hearing with the details on that question.
    Mr. Gaches. Sure. I would be happy to do that.
    Ms. Lofgren. Thank you.
    Mr. Simmons. Chair recognizes the gentlelady from New York.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And thank you very much for appearing before us, and I 
would like to pursue this line of questioning because in my 
district, there have been at least five different examples of 
constituents that have contacted my office about possibly being 
placed on a watch list, and in each case, it seems as though 
they are a false positive and don't deserve extra screening.
    One case in particular, which I think we finally sorted 
out, this person was a Peace Corps worker in Africa 20 years 
ago, and he rides first class, he rides frequently. He has an 
international business. He lives in Westchester County. He must 
have names similar to others on the watch list, and each case 
he still has to arrive several hours before he boards the 
plane. And I hope the most recent effort that my office has 
made will take care of this.
    But it seems to me that your intelligence office has or 
should have a central role in TSA's current redress process, 
and my understanding is that innocent travelers now supply 
additional information about themselves to TSA to distinguish 
themselves from those on the terrorist watch list.
    And we want you to do your job because we understand that 
the safety and security of the public is at stake here; 
however, this particular case and a half dozen others that have 
been brought to my attention just seem to me to be a lack of 
efficiency, or that is what I am trying to find out. What is 
going on? Could you tell me the average amount of time it takes 
for an innocent traveler to clear his name?
    Mr. Gaches. Thank you. No, I could not, because the Office 
of Redress is the one that has those statistics and runs that 
activity where an individual who wants to fill the paperwork 
out and the forms to have their name or similar name, if you 
will, removed and clarify them as not being the party of 
interest, they maintain that. It is an entirely separate 
operation from me. We occasionally get involved, depending on 
the particulars of the case at hand.
    I am not familiar with the individual that you mention from 
Westchester. I would be happy to take additional information 
perhaps after this or through your staff and personally look 
into this on your behalf, but the general process is that the 
Office of Redress at TSA will take the information from an 
individual. They will return to us and to the TSC to compare 
that information with that which is held in the databases, and 
then we can go from there. We have gone to some--at some points 
issuing letters for individuals to carry to explain to the 
carriers. This takes--sometimes this will take, unfortunately, 
a lot of time to get the records cleared all the way back 
through the various carriers.
    Mrs. Lowey. But, Mr. Gaches, don't you have a voice in who 
makes the no fly list? Has the Terrorist Screening Center drawn 
the expertise of your office from making decisions?
    Mr. Gaches. In this setting I would just say that the 
preponderance of the no fly and selectee individuals are 
nominated by other agencies, and TSA has a limited role in 
doing that because this comes from, we will say, core 
intelligence agencies and law enforcement agencies. We at TSA 
Office of Intelligence seldom--certainly not in the 4 months I 
have been there--have nominated individuals for either of these 
lists.
    Mrs. Lowey. Well, one of my concerns, not just with DHS, 
but I have seen this happen with many of the agencies of 
government, is the lack of coordination, and it seems to me 
that we have had three attempts at least to put in place an 
automated passenger screening system, and if you don't know the 
role and responsibilities of your people, how would the program 
be designed in ways so they are going to work together' Because 
it seems that the integration of these offices should have been 
addressed in the planning stages of the program.
    Maybe you can explain how that works, and if someone is 
applying for redress, shouldn't the Intelligence Office be 
involved' Shouldn't an intelligence analyst look at what 
evidence there is and what questions should be asked, and who 
else has the background and knowledge at TSA to inform the 
discussion of who is and who is not a terrorist?
    Mr. Gaches. I would again comment that our office's purpose 
is more in the liaison with the airlines' at the beginning. On 
a redress issue, we would have--we could help facilitate going 
back to the originator of that individual being placed on the 
list, and 99 percent of the time, 99-plus percent of the time, 
that is not the TSA Office of Intelligence who nominated that 
person in the first place. So we would have to go back to the 
originating agency and ask them for further details, tell them 
the information that the Redress Office has.
    And I take your point. We could perhaps be more proactive 
in facilitating that between the Office of Redress and whatever 
element of the Intelligence Community or law enforcement 
community nominated the name in the first place. But by and 
large, that is not a role that we have had a leading role in, 
if you will.
    Mrs. Lowey. My time is up, but let me just say, Mr. 
Chairman, if I may, I am concerned that we are not doing enough 
to examine these names, and if we ever reach a time where we 
need to focus our resources on an imminent threat, the 
terrorist list will be needlessly populated by people who pose 
no threat, and we will not have separated those individuals who 
should not be on the list from those who should; and that we 
are going to be overwhelmed by a list which is so long and 
unrefined that it defeats the very purpose of a list, which is 
to focus on the real threats.
    So I am concerned that there are so many of these units 
that have particular responsibilities, and I wonder about the 
overall coordination and what your office is actually doing to 
refine these lists, but I guess we can take that up another 
time unless the Chairman--maybe you could pardon? Okay.
    Mr. Simmons. We plan to have a second round of questions. I 
think the gentlelady's comments are well taken, and I think 
that, as I understand the process both from the witness and 
talking to others, the Office of Redress goes back to the 
originator of the information, and in these particular 
instances, if TSA intelligence is not the originator of the 
information, let us say it is FBI or CIA or somebody else, they 
would not be directly involved.
    But I think what you are suggesting, which is quite 
correct, is that we have to facilitate and improve the process 
of cleaning up these lists, because if my constituent is on the 
list with several other people by his name, and one of those 
people is a dangerous person, we want to make sure that it is 
the dangerous person that is being apprehended and not 
everybody else. And, you know, that goes to the issue of trying 
to improve the process, and that is what oversight is all 
about.
    And now I yield to my friend from Rhode Island, the 
distinguished gentleman Mr. Langevin, who has been very 
patient.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, Mr. Gaches, thank you for your testimony today. And I 
echo the sentiments and comments of many of my colleagues. We 
are concerned--we obviously want the potential terrorist watch 
list to be accurate, and the sooner we can make sure that that 
list is culled and that we have an adequate redress process, 
the better, because I don't think there is a member in Congress 
that hasn't had a constituent or someone they know directly 
that has been on that list and shouldn't be because they were 
looking for a list--the list itself was looking for someone 
else.
    Turning to another front, though, we have heard from Chief 
Intelligence Officer Charlie Allen about his plans for a new 
Office of Intelligence and Analysis, and his plans to integrate 
the various intelligence components as a united intelligence 
operation. So it seems to me that IA must decide if it is going 
to be either a strategic-type operation that focuses on setting 
an agenda, policies, and representing intelligence components 
like your shop to the wider Intelligence Community, or an 
operational shop that is going to be creating its own 
intelligence products.
    So my question is what path is IA taking, in your view, and 
what path should it be taking, and how is IA's approach working 
for your shop?
    And my other question would be how does TSA's Office of 
Intelligence work to ensure that your analyst expertise informs 
what IA is producing, and what challenges have you encountered 
in this area?
    Mr. Gaches. Thank you, sir, for those questions. On the 
first--I think that the DHS IA approach to being the strategic 
sort of ombudsman for the Department in having cognizance of 
and looking at the strategic assessing of issues related to the 
component intel parts is the way to go. DHS IA has to cover 
everything in regards to the homeland. I am somewhat of a 
specialist. I am the transportation systems or networks intel 
officer. I am not saying that I don't care about other aspects 
of the terrorism problem, but that is where my focus really has 
to be, and I am much more tactical than the DHS IA activity in 
the sense that I am on the phone or my folks are on the phone 
with someone at Amtrak, someone at a particular airline, 
whatever the case may be. DHSIA, I see them, and I am hoping, 
and I think from conversations with--Charlie Allen sees them 
more of a strategic view.
    Now, we are just beginning, as I mentioned in my opening 
comments. This is an architecture that is a work in progress, 
and we have got some load-smoothing to do and some bumps to 
iron out, but that would be my response to the first part of 
your question.
    As far as how we sort of work, I think your second 
question, more almost on a day-to-day, how do we fit into IA as 
far as ensuring analytic conversations and collaboration, we 
are in no small part in constant contact both visibly and 
physically, if you will, with the individuals at Nebraska 
Avenue. Each of my modal transportation analysts have an 
individual or individuals IA that they have the ability to 
reach out to. We try and inform and in many cases coordinate on 
the work that we do. They are the recipients--they, being IA, 
are the recipients of everything that the Office of 
Intelligence at TSA produces. So I think, you know, we are 
providing them everything that we are doing. We certainly have 
access to all that they produce, but I would just ask you to 
consider keeping in mind that we are servicing that very 
focused area--not small, not insignificant by any stretch of 
the imagination, but we are transportation focused, and DHS IA 
has to look across the gamut of things that are homeland 
security issues.
    So we are actually complementing each other, and as I said 
again in my opening comments, not too dissimilar from the JCS/
J2 model where if you are the J2 at the Pentagon, and you want 
to know something about what is going on in Bolivia, as an 
example, chances are you are going to reach out to the J2 at 
SOUTHCOM who really has some expertise and is focussing in on 
there, and then that relationship exists between those two, 
just like it does between Charlie Allen's folks and myself.
    Mr. Langevin. Within the Department, do you believe that 
you have timely access to the accumulated DHS intelligence 
base' That is, can you easily retrieve--I mean, manipulate 
information or intelligence that, for example, Immigration and 
Customs Enforcement, for example, has collected; and if so, by 
what means do you access this information' Specifically which 
systems do you use?
    Mr. Gaches. Thank you.
    In all honesty, I don't know the names of the systems, if 
you will. But we do have the ability to reach out and 
electronically obtain the Customs and Border Patrol reports, 
the ICE reports, the Coast Guard reports, all of the DHS 
components, as well as the Intelligence Community component 
reporting.
    Now, there are limitations. I can't say that we have access 
to 100 percent of everything that is out there. And in some 
respects we probably don't even need access to 100 percent of 
everything out there because of our niche approach, if you 
will, to a lot of the issues. But I feel comfortable that my 
analysts are able to go through both the classified and the 
open source through our IT connectivity, which is very robust, 
with all of component intel parts of DHS, as well as with the 
Intelligence Community members themselves, and I feel fairly 
comfortable in the way and the speed with which we can do that. 
And that is in addition to conferences and meetings and just 
telephone conversations, and very often like-minded analysts or 
subject matter experts gravitate together and exchange 
information as well.
    That is sort of the informal network. So I think we have it 
fairly well covered for both informal as well as electronic 
connectivity.
    Mr. Langevin. I thank you.
    I see my time has expired, but, again, thank you for the 
answers to my questions, and we certainly look forward to 
working with you to make sure that this effort is as robust as 
possible to make sure the work that you are doing is maximized. 
Thank you.
    Mr. Gaches. Thank you.
    Mr. Simmons. I thank the gentleman for his questions.
    The chair now recognizes the gentleman from Nevada.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Mr. Gaches, thank you very much for being here today and 
for your testimony.
    Basically what distinguishes or differentiates TSA's 
intelligence from Homeland Security intelligence?
    Mr. Gaches. Thank you, sir. If I may, I am assuming you 
mean specifically how do we differ from intelligence and 
analysis----
    Mr. Gibbons. Analytical.
    Mr. Gaches.--IA, if you will, at DHS headquarters.
    I would offer that we are very focused on transportation. 
That is our niche. That is our lane, if you want to call it, in 
the road. IA is very much looking across the board of all sorts 
of issues related to homeland security that may or may not have 
a transportation and terrorism nexus. I think we are also much 
more tactical in many respects.
    One of my goals and one of the Office of Intelligence's 
goals is this doesn't do us any good, this intelligence, if we 
can't get it out to somebody who can use it and make a 
difference, whether that is in the industry, or whether that is 
an operating element of TSA, such as the Transportation 
Security officers at the airports, the Federal security 
directors located across the country, the Federal air marshals. 
Any of those thousands of people are our customers as well as 
the transportation industry folks themselves. So we are that 
short link or we are that last mile between intelligence that 
could be operationalized and be worked on by a customer to take 
a positive action, and we have done that clearly in a number of 
cases since I came on board in February; not because of me, but 
I can cite this as an example.
    I have lived through--we have informed at least three U.S. 
carriers about--we will just call them in an open hearing nasty 
situations in certain parts of the world. We were the ones who 
took it from the high classified side, worked a story down that 
is deliverable to the airlines in this case, explained to them 
the problem in some cases face to face, and then watched them 
take whatever actions they thought were appropriate. I think 
that is a more deliverable kind of intelligence that we are 
responsible to to the transportation industry of America than 
what I consider the IA approach, if you will, or focus, is very 
much a strategic and very much completely across the board of 
homeland defense.
    Mr. Gibbons. Mr. Gaches, are you saying that homeland 
security doesn't do transportation analysis of its 
intelligence?
    Mr. Gaches. Oh, no, sir, not at all.
    Mr. Gibbons. What you are saying is you are a second set of 
eyes on the same intelligence or the same analysis that 
homeland security does?
    Mr. Gaches. Sir, I probably misspoke in that what I mean is 
lots of folks get the same intelligence reports wherever they 
are derived from. We at TSA will get similar or identical 
reports as to what DHS IA does and many other people within the 
community or in the U.S. Government.
    What I was trying to say was I think unlike DHS IA, who I 
have seen tends to take a more strategic across-the-board look 
at sometimes--a larger look at even a given subject, we are 
very much more in the tactical--tactical environment with our 
customer set on a daily basis.
    Mr. Gibbons. Very briefly because my time is limited. From 
that standpoint, where would you suggest improvement in TSA's 
analytical intelligence efforts?
    Mr. Gaches. I think that we have a lot of room to improve 
in just the taking a lot of the tactical information that we 
get, a lot of which comes from the field that TSA is in. In 
other words, we have two different reports in particular in 
which TSA officers, wherever they may be in the U.S. system, 
but as TSA, provides at least 60 percent of the information 
that comes into us to put those reports together, and I believe 
that we probably need to take that information and step back 
just a little bit, not too far, and start to look more at 
trends in different transportation networks; see if there are 
patterns, compare across transportation networks and see if 
there are more similarities between, say, aviation and rail 
activities, et cetera, still not in that larger assessment role 
that I see DHS IA doing, but clearly we have some room to grow 
in that TSA OI.
    Mr. Gibbons. What keeps you awake at night, Mr. Gaches?
    Mr. Gaches. A lot of things in this business after a lot of 
years. But in all seriousness, sir, a great question. I think 
right now there are probably two things that I will sort of 
generalize in an open forum, and that is if you look at London, 
if you look at what has happened in Canada recently, the phrase 
comes about that we use ``home-grown,'' and I think that is a 
that is a field ripe for study and for analysis about home-
grown individuals wanting to engage in the terrorist activity 
as opposed to awaiting the next shipment, if you will, from an 
overseas location. That certainly is one thing.
    The other thing that I find very challenging, and I, in 
fact-- Mr. Chairman and I were speaking about this the other 
day. I can't find an answer, and it has to do with sometimes 
the lack of certain types of activity in this country, and you 
know, we sometimes wonder with what we see overseas, 
particularly the use of suicide bombers and improvised 
explosive devices overseas, we certainly wonder and stay up at 
night questioning about the lack of that in the U.S., and that 
is what keeps me up. Some of the things we do about that would 
best be said in a classified session at another time. I would 
be happy to take that on.
    Mr. Simmons. Thank you, Mr. Gaches. The Chair recognizes 
the gentleman are from New Mexico, Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. Appreciate the 
testimony and the opportunity to ask questions.
    If you were to look at the structure around the 
intelligence section of TSA, how far do you have to go around 
the director, administrator in charge, to find somebody with an 
intelligence background instead of, say, a lawyer or whatever? 
What is the management structure?
    Mr. Gaches. Specifically within TSA'
    Mr. Pearce. Yes.
    Mr. Gaches. Thank you, sir, for the question. Of course you 
know Mr. Hauley, the Administrator, is literally right above me 
as the Assistant Administrator and Director of Intel, and he is 
a very, very strong advocate of his entire staff understanding 
that he wants intel to drive a lot of the decisions, policy 
formulations and actions taken by TSA as opposed to we are just 
going to do it because it seems like a good idea. A very strong 
advocate.
    Mr. Pearce. I didn't ask if he is an advocate, I asked if 
he has got background.
    Mr. Gaches. I am not familiar with Mr. Hauley's background 
to that degree. I am unaware of it.
    Mr. Pearce. When TSA started 2, 2 1/2 years ago when they 
first arrived we were asking the same question. You could go 
for five or six layers without finding anybody but lawyers, so 
then the administration program began not to be directed so 
much at outcomes but in processes and legal defenses and things 
that really in my mind compromised the ability of the program 
to work to really protect the American people, and instead 
appeared to have processes to protect the TSA from outside 
intervention.
    Mr. Gaches. Sir, if I may, I have only been there for 4 
months but my access to the Administrator is unfettered by any 
other Assistant Administrator or by his Principal Deputy. We 
start the TSA day off in my area of intel with all of the other 
assistant administrators and what we call general managers in 
attendance of a morning briefing. It is an intel briefing.
    I think there is a greatly improved presence of intel and 
intel usage by TSA in the past 4 months. I am impressed by how 
an organization in which I am a very, very, very small 
minority, gets an awful lot of attention from all of the 
elements of TSA.
    I hope that helps clarify, but I am optimistic about the 
way intel is going at TSA at this time in the administrative 
sense.
    Mr. Pearce. If I were to ask the local sheriffs in my 
district--I have got a very rural district, right on the 
southern border of the country--the last time they got any 
evidence through the channels, the intel channels rather than 
through the local news or CNN or Fox News, do you think that 
they would respond that they ever hear from you all, that there 
is any mechanism to communicate down to the people on the front 
lines?
    Mr. Gaches. Sir, I honestly don't know about literally the 
local sheriff, but we do push our information as low as the 
unclassified level. We literally have hundreds of thousands of 
recipients of those reports that come out on a weekly basis and 
those are pushed down as far as any of the operational elements 
at TSA or DHS Central wish to, and if there is an element that 
is not hearing from us that anyone feels should, I would be 
more than happy to have that conversation and probably end up 
providing that information.
    Mr. Pearce. I wonder, a lot of times TSA begins to 
contemplate how to respond based on projecting the threat and 
projecting how the threat is going to arrive. Do we really 
believe that we can project what the terrorists are going to 
think next? In other words, mostly we respond to what has 
happened in the past, so today everybody takes off their shoes 
because of one shoe bomber.
    They are not going to come with shoes the next time, they 
might come with a shirt or something next time. You can follow 
it from there. But even with a light touch, too, it just seems 
like the ability to project what is in the terrorist mind is 
really unusual.
    I see my time has expired. You can answer if the Chairman 
permits.
    Mr. Simmons. Please.
    Mr. Gaches. In an open forum I will be very careful and say 
there is a lot that we look back over our shoulder. The old 
adage that history teaches, et cetera, I think applies in this 
case. I think we are not in the clairvoyant stage, but I think 
we have some good sense about the future, and I would like to 
leave it in an open session at that, and I would love to have a 
classified hearing at greater detail.
    Mr. Simmons. Thank you.
    We are prepared to do a second round if members are so 
interested, and, if so, I will start with a couple of questions 
of my own. You have used the word ``tactical'' as opposed to 
``strategic'' in drawing the difference between TSA 
intelligence and, let's say, INA at a DHS level. There has also 
been reference to planning and developing policies, procedures, 
and applying resources to the problem of the past as opposed to 
perhaps a current or future threat.
    We have put literally billions of dollars into aviation 
security, we have heard tens of thousands of people, we have 
got all kinds of equipment and policies and procedures, and 
anybody who travels in America has encountered those up close 
and personal. America is airborne, and, as a consequence, that 
is a legitimate area to focus, especially after 9/11.
    I also have concerns about Amtrak and the national 
passenger rail system, about Metro in the Northeast, and other 
computer rail systems like BART. We have got pipelines. I 
believe all of these different systems come within your purview 
in one form or another.
    Focusing specifically on rail, I serve on the Railroad 
Subcommittee and there is a tremendous lack of rail security 
personnel, whether it is Amtrak or whether it is the other 
systems. And I wonder if you could talk for a minute or so on 
the staffing that you have to focus on the rail target, if you 
will, and maybe give us a sense of what those risks are, given 
London, the Spain and Japanese experiences that we have had.
    Mr. Gaches. Thank you, Mr. Chairman, for that question. 
Indeed our analysts are roughly divided across the different 
modes. They are not all aviation-oriented or one mode over the 
other, and we do have a few that can go in different 
directions.
    Certainly the lessons of London, Madrid, and, from the 
nineties, Tokyo, have made it very clear to us that rail and 
mass transit are areas that we need a lot of attention and, in 
all honesty, are probably areas that we could even increase our 
attention in the future.
    We are trying very hard to reach out directly from the 
Office of Intelligence to the rail and mass transit industries, 
if you will. We are also utilizing other elements of TSA where 
there are general managers, if you will, as they are called for 
the different transportation modes to work through them.
    As I mentioned before, we have a series of reports that we 
issue on a weekly basis that talk about suspicious incidents, 
observations, surveillances, et cetera. Those are flowing back 
to all of the sectors, to include rail and transport. And as I 
also mentioned, a lot of that information is gathered, if you 
will, or observed by TSA individuals, but also can come to us 
from an Amtrak or another private rail company or whatever the 
case may be.
    Again, we are trying to keep this a fairly tactical level. 
This is not necessarily something that we are quite ready, nor 
probably will we be for some time, to go into the large, large 
assessment; although twice a year for each one of the modes, if 
you will, of transportation that I articulated in my opening 
comments, we do prepare a classified and unclassified 
assessment from what we have seen at the tactical level and we 
provide that to many people including, DHS IA who can then take 
it on to even a further level.
    So I think we have fairly robust effort with the rail 
activity. It is one that we are building. I certainly can't say 
that it is as robust as aviation for some of the obvious 
reasons that you have articulated in our past, but we are 
clearly looking at that as an area of future concern in trying 
to react accordingly and increase our involvement with that 
sector.
    Mr. Simmons. Thank you. Very briefly, you spent 30 years 
with the National Security Agency, one of the key components of 
the U.S. Intelligence Community, with the CIA, FBI, DIA, the 
military services and so on. TSA, as you mentioned, is not one 
of the 16 members, TSA Intelligence. What motivated you to move 
from one of the 16, one of the premier, to a relatively small, 
relatively new, relatively unknown component of intelligence?
    Mr. Gaches. Thank you, sir. Small, unknown and those other 
things, that is a challenge. But in all honesty, d truly I mean 
this in all honesty and frankness, you can sit outside the DHS 
family and you can make criticism, or you can join the team and 
help make it better. I was headed back to NCTC and potentially, 
probably, retirement. And when Charlie said, would you have any 
interest in doing this, it was just too good to be true, and I 
couldn't get down to Arlington, Virginia fast enough.
    I find it exciting, challenging, good workforce, dedicated 
group of folks where homeland focused. In those 30 years--and I 
mentioned doing counterterrorism at NSA--I spent my fair time 
doing other things that might not be homeland focused, and it 
is pretty rewarding to try and apply that knowledge, if I may 
be so bold as to say there is knowledge to specifically the 
homeland environment. It was an easy choice, it truly was.
    Mr. Simmons. Thank you. The Chair recognizes the Ranking 
Member.
    Ms. Lofgren. Thank you. I want to get back to the terrorist 
watch list, because as has been discussed here, it is 
important. We can't get it perfect, I think we know that. We 
need to do the best that we can. We need to probably err on the 
side of caution. So I don't think there is disagreement on 
those basic points.
    On the other hand, the GAO has told us that we are--I don't 
want to say starting over, but going through manually the 
entire list, and I think TSA and TSC is going through it, but 
it is going to take 5 or 6 years, according to GAO, to complete 
that. And it strikes me that that, therefore, means it is a 
never-ending task because as that review is going through 
manually, more information is going to be coming in and we will 
have to go through that manually.
    Have you thought about this and what we could do that might 
make that more efficient and accomplishable in the near term?
    Mr. Gaches. Not as much as I probably should, ma'am, to be 
perfectly honest. I think that there are so many entities now 
involved in the watch list process that it is probably time for 
us to once again sit down and examine the roles of the 
individual agencies, entities, and talk about this very subject 
of taking so much time to go through this list and revet it. 
Because you are absolutely correct, we will get through the 
list. By the time we get to the Zs there will be a whole new 
group of As, Bs and Cs.
    I have no particular straight substantive answer for you 
except the promise to look at this, to become more involved in 
this, and, as I said earlier, would really welcome the 
opportunity to talk to the subcommittee in a classified session 
with others who are involved in the process, because I could 
easily misspeak or misinform you by trying to address some of 
the areas that you have brought up that I think fall outside of 
my specific office area's responsibility.
    Ms. Lofgren. Let me ask, it is not just the government but 
it is all of the private sector partners that have to be 
aligned on one mission, which is to keep us safe; but the 
private sector actors are pretty reliant on the information we 
give them. And it strikes me--I am sure you wouldn't disagree--
to the extent that we are stopping babies whose name is Osama, 
we are wasting our time and effort that should be focused on 
real threats, and we don't have enough time to spare to divert 
ourselves for things that don't work.
    I was listening to the Chairman talk about the redress 
committee and I think it is important from an individual's 
point of view that if you are unable to fly and you are the 
wrong guy, that you be able to get that fixed. None of us 
quarrel with that.
    What has always bothered me is, once it is fixed, it is 
important not just for the individual but for the system itself 
so we don't divert our efforts to things we don't need to look 
at. So, for example, if you have Sean O'Casey on the IRA and on 
the watch list, a Sean O'Casey who is complaining that he was 
born in 1935 and he is not the real guy, somehow that 
information needs to get into the system so that the airlines 
cannot waste their time on the older Mr. O'Casey and be looking 
for the real Mr. O'Casey.
    It seems to me we don't have enough data in the system to 
allow for the corrections itself. Have you thought 
strategically how to layer that information so that we can 
actually focus our efforts on the people we are really worried 
about?
    Mr. Gaches. In an open forum I will see if I can give you 
an answer, ma'am, that makes sense, because I agree with the 
premise that you just outlined. Because we go from the 
classified to the unclassified world, there is a fair amount of 
information that drops off, as you would expect when you get to 
the unclassified.
    I think it would be useful for intelligence officers to 
step back and see what else could be added to the, quote, 
unclassified world to make it easier to have the right person 
stopped, not the wrong person, and also not have the wrong 
person stopped in the future.
    I am not sure that we have even gone down that path, but as 
you spoke I think you certainly gave me an idea about dropping 
back on this and looking at what else could be done as 
identifiers of the individual besides the current paradigm, if 
you will, and I wouldn't want to go much deeper into those 
elements.
    Ms. Lofgren. We had a hearing in the last Congress on the 
fact that name checks alone were not good enough. I realize in 
some cases the intelligence--we may not have the whole rich 
amount of intelligence, and maybe that is all we have got, but 
that is not always the case. Just seems to me we need to build 
a system that will utilize the data that we do have, just put 
aside the individual's interests, I don't want to say that is 
not important, but in our own interest in keeping the country 
safe. And if we are going to have a watch list that really 
works, we certainly want to fine-tune that if we are going to 
use that for rail systems, anything else with a ticket and a 
name that we might expand.
    I see my time is up, but I would just like to close with a 
request for information either in writing or, if necessary, in 
a closed session about what technology is being considered by 
yourself to share the kind of information that you are 
receiving with our private sector partners in keeping us safe, 
that would respect the sources and yet get that information 
out.
    I thank the Chairman.
    Mr. Simmons. In response to that, I would be happy to 
schedule a follow-up meeting or briefing in a secure 
environment for any members of the subcommittee or other 
subcommittees of the full committee who are so interested. And 
the Chair now recognizes the gentlelady from New York.
    Mrs. Lowey. Thank you, Mr. Chairman, and thank you again, 
Mr. Gaches. On another area, we have invested billions of 
dollars in screening passengers, and certainly the Chairman and 
all of us are happy to take off our shoes or jackets or 
whatever is necessary to go through the system.
    However, airports are allowed to issue SITA badges to those 
workers who work in the secure areas. They don't have to go 
through the metal detectors. They work in food catering, they 
work in the mechanics of the plane. And as I understand it, in 
fact, it is a fact that they don't have to go through the 
screening in most situations.
    Now as I understand in Europe, at the largest airports, 
everyone has to go through the screening. At LaGuardia there 
are over 20,000 SITA badges that have been issued.
    Now, in addition, I think it is important to note that the 
background checks on workers include only criminal background 
checks and a watch list. They don't ask for the Social Security 
numbers. So they don't have any identification.
    We know what happened, I think it was about 2 years ago at 
JFK, there were several airport workers that were arrested for 
smuggling drugs. Could have been explosives instead of 
narcotics.
    Are you concerned about this and what is happening about 
this? I have to say with all fairness to Mr. Gaches, I 
understand you are there for 4 months but I have been talking 
about there for 4 years. And to me it just doesn't make any 
sense. If European workers have to be screened and go through 
those metal detectors, seems we should be able to do it here.
    By the way, I mentioned LaGuardia, 20,000 SITA badges; San 
Francisco International, 16,536; in Las Vegas, 21,912; in 
Hartford Bradley Airport, 4,133. I am sure they are all good, 
hardworking people, but why shouldn't everybody have to go 
through the metal detector and could you please comment what 
you are thinking about doing about it; are you concerned about 
it; what should be done about it?
    Mr. Gaches. Thank you, ma'am. The role of my office in this 
particular scenario that you have outlined is probably the role 
that you could really like us to be and hope that we are, and 
that is that we are pointing out similar concerns and 
deficiencies which I would like to elaborate upon in perhaps 
the closed session, that the Chairman will arrange on the no 
fly and selectee list issues, because there is a similar 
process, if you will, for transportation workers, the vetting 
process. It really would be unfair to talk about that.
    But what I am saying is we recognize that there is an issue 
with issuing SITA badges and we understand that there is a 
differentiation between a SITA worker and the public individual 
who goes through a different treatment. And we are looking at 
that and we are looking at what the threats are associated 
potentially, and in some cases real, in both those scenarios 
and those populations. But it would be remiss of me to go into 
great detail about our action plan or thinking in an open 
forum, for obvious reasons, but I would welcome the opportunity 
to walk you through that in greater detail at another time or 
in written response.
    Mrs. Lowey. I would be delighted to follow up on this, Mr. 
Chairman, because it seems to me it is like installing an 
expensive home security system and leaving the back door open. 
We are happy to go through these metal detectors, but this is 
an issue I have been talking about for a long time, and you 
probably can't discuss in this setting whether there is any 
security threat that could come from an airport worker, could 
you?
    Mr. Gaches. I think that would probably be remiss of me to 
go into any detail on that. Yes, ma'am.
    Mrs. Lowey. Perhaps I can give you another follow-up 
question. Is your office doing anything to analyze potential 
threats from a terrorist who could gain almost unfettered 
access to airports by obtaining a SITA badge, or is that for a 
follow-up hearing as well?
    Mr. Gaches. Yes and yes. How is that?
    Mrs. Lowey. Maybe you can answer a follow-up question. I 
know you are only there 4 months. I am just a Member of 
Congress but I have been concerned about this for years, 
especially since 9/11, and then after what happened with the 
arrest at JFK with narcotics, and we know that this is a risk. 
Have your predecessors been focused on this at all, have they 
left you any information, or are you just starting from scratch 
and just became aware of this issue?
    Mr. Gaches. No, ma'am. I would say there is a good portion 
of TSA not represented by my office that worries about the 
issuance and the processes for the SITA badges specifically, 
and certainly that has been ongoing work and revisions and 
improvements to that process are being looked at and worked on. 
And certainly from an intelligence standpoint, I certainly 
believe that my predecessor was quite aware of the potential 
for this area and looked at that and compared all of the 
available intelligence information that might exist in that 
particular realm.
    Mrs. Lowey. Mr. Chairman, I know my time is up and I will 
conclude. Can you give me one reason, possibility, from 
reviewing this--because this is an important issue--as to why 
someone with a SITA badge shouldn't have to go through a metal 
detector, one possible reason? Why wouldn't they? Why wouldn't 
they give the benefit of the doubt to the possibility of a 
threat. Why should someone get a SITA badge, not have it 
reissued for a couple of years, go into a secure area, service 
the plane, whether it is in food, catering or mechanics, have 
access to that plane, when you don't have their Social Security 
number, no one is sure that they haven't passed the badge to 
someone else? Has anyone recommend that this be changed?
    Mr. Gaches. Again, ma'am, I believe that that whole process 
is being reviewed at this time; the criteria for those badges 
being reviewed.
    Mrs. Lowey. How long is this review going to take? I have 
been asking for this review for the last 3 years.
    Mr. Gaches. No, ma'am. I apologize. I do not know where 
they are at in that particular review process. I do think there 
is a sense of urgency that has been applied to it just before 
my arrival, if you will, because clearly it was one of the 
first issues that I heard outside of the Intel Department of 
TSA being discussed about in earnest, and our role is to try 
and contribute some thoughts about if you are going to revise 
this, what can we the, intel folks, provide to you, the ones 
that are making the SITA policy; how would you improve it; what 
are the things you should be looking for, checking for? I kind 
of leave it at that in open session.
    Mrs. Lowey. Mr. Chairman, perhaps Mr. Gaches could get back 
to the committee before the next hearing with some kind of time 
frame. I am still waiting for the Standards--from the 
Department of Homeland Security--for Interoperability, and I 
hope we don't have to wait another 3, 4 years for you to 
conclude this evaluation.
    Good luck to you. I know you have only been there for 4 
months.
    Mr. Simmons. I thank the gentlelady for her questions. I 
agree with the thrust of her comments. And I think we all have 
that concern, that people who are badged but in and out on a 
regular basis, sail on through. From my own background and 
experience, food can be configured in many different ways, not 
just to eat, but to do other things. And so that can be an 
issue. Certainly issues relative to mechanics and maintenance 
are important.
    I am not convinced that Mr. Gaches' office is the central 
focus for this activity, but I would be happy to invite him 
back to a closed session with other participants to see what 
the delay is and see what we can do to expedite it.
    Mrs. Lowey. If I may just respond to one thing, my concern 
here is if Mr. Gaches' office doesn't have the responsibility, 
who does? My experience is there is a great big bureaucracy out 
there, and so if you can find the answer to that question, let 
us now how long this investigation----
    Mr. Simmons. I think what we will probably find is that 
site managers probably have substantial discretion, whether 
they should have it or not. But I feel badly for my colleague 
from Nevada who has been waiting so patiently, and I now 
recognize him.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and I will 
try to not take too long.
    I wanted to go into an issue of the area of information 
sharing, simply because over the last many years there has been 
a question not so much about agency to agency, although there 
still is this, I don't know, obstacle between sharing when 
people want to take pride in their work product and credit for 
what they do, but information sharing from the Federal level 
down to the State and local level in transportation issues, 
whether it is airport, rail, highway, whatever.
    Talk to me a little bit about whether or not that 
information sharing responsibility is through the TSA or only 
through Homeland Security.
    Mr. Gaches. No, sir. It is a combination, and what I mean 
by that is we view that the DHS IA has a very, very strong 
charge to work with the State Homeland Security advisors and 
the local government elected officials and advisors. That does 
not preclude TSA, who is a strong participant on the 
transportation side, with two different bodies, if you will, 
ISACs, which are really the transportation network and private 
sector companies, if you will, getting together, whether it is 
highway or rail or aviation. And those are localized as well as 
nationalized. They are helping to push information down.
    There is also another fairly new adventure with the 
government councils in which we are trying to facilitate the 
pushdown of information to State and local transportation 
authorities, and DHS is working with the Homeland Security 
advisors; and as long as we are working together with DHS IA, 
we are trying to ensure that all of the appropriate State and 
local, be they elected or private individuals involved in 
transportation, are aware of some version in a form that is 
useful of threat, new developments. And I harken back to the 
report that I mentioned that we send out on a weekly basis on 
both fueled intelligence activities, as we call it, and also 
suspicious incident reporting. Those are to be shared widely 
amongst State and local, both government and private sector 
entities.
    I mentioned perhaps earlier that very little of this 
information should be viewed as so secret that some version of 
it can't be shared with that furthermost point, and I am 
certainly interested in trying to solve the sheriff's problem 
of your colleague, because every time we hear this we are going 
to find gaps where we are not quite there yet in getting that 
information out and down. But it certainly is one of the 
highest goals of the Office of Intelligence at TSA to ensure 
that happens and that we don't have surprises at the distant 
end of the system, if you would.
    Mr. Gibbons. I suppose that TSA, then, as well as Homeland 
Security, have their own protocols for sharing information.
    Mr. Gaches. But they are concurrent protocols in how we do 
that and we do that together.
    Mr. Gibbons. Current, meaning?
    Mr. Gaches. The protocol is such that I believe they 
understand our role with the transportation industries and 
associated State and local transportation activities. I think 
we understand their slightly upper-level approach to the State 
and local government officials. And when I say ``protocols,'' 
concurrent is probably the wrong word, more ``complementary,'' 
so that there is coverage for all and not unnecessary 
duplication across entities from DHS Central, if you will, and 
from the DHS office.
    Mr. Gibbons. Are there times you have to seek permission or 
authority from Homeland Security to share information 
vertically?
    Mr. Gaches. We have had occasions where when we have 
informed DHS Central that we wanted to send something out, they 
have asked if they could look at it to make it a better 
informed product. If someone can make it a better informed 
product at DHS IA, I am willing to do that. We have sent many 
other things out, including the weekly reports that I have 
mentioned, and there is no--we have to get permission to do it 
before we send it.
    Mr. Gibbons. Sometimes States do undertake their own 
analytical fusion centers. California is doing that, I think 
Nevada is looking at doing something similar to that as well. 
Do you actually either have an individual that coordinates or 
is in place in those fusion centers on the State level that is 
either trained to look at or to work through your details and 
your information?
    Mr. Gaches. No, sir; we do not. DHS is working with those 
State fusion centers and Charlie Allen is working on a program, 
I believe, to have IA intelligence analysts deployed to those 
State fusion centers. TSA Office of Intelligence, as I have 
described, is not overly large; appropriately sized for what we 
are tackling.
    But one of the things we are going to experiment with in 
this year, in fact we started at the beginning of June, is to 
deploy a TSA Office of Intelligence analyst to six of the 
Federal security directors who happen to be located at 
airports. But they are intermodal-thinking people, if you will, 
and we want to see if there is a value in putting one of our 
headquarters folks out a little more at the pointy end of the 
spear, where that individual can do two things for us in a very 
rough sense: one, make sure the intelligence that TSA Office of 
Intelligence is producing is being used and being understood at 
that particular location; and, conversely, those observations, 
that information which is occurring in that geographic area 
where that person is assigned again to the TSA Federal Security 
Director, gets back into my analyst in Arlington so we can be 
better informed.
    We will weigh the pros and cons of that after trying it for 
6 to 12 months and see where we go with that in conjunction 
with what Charlie Allen is doing with his infusion of analysts 
to the fusion centers of the States.
    Mr. Gibbons. Mr. Chairman, I appreciate the time you have 
given. There are certainly a number of questions I could have 
asked, but I will yield to anyone else at this point in time 
who wishes to ask further questions.
    Mr. Simmons. I appreciate that. Your time has expired but 
the Chair is happy to recognize the gentleman from New Mexico 
for his time.
    Mr. Pearce. Thank you. I thank the gentleman for yielding 
expired time to me. People do that with parking meters all the 
time.
    If you would explain to me about how you achieve the risk-
based security strategy--in other words, what is the 
quantitative measurement of that risk base, in very short form, 
because I have 3 or 4 minutes' worth of questions. How do you 
achieve that internally; how do you look and evaluate the 
risks?
    Mr. Gaches. I wince because it is a great question. At the 
same time it makes me nervous, I think from my background, to 
try and give you a solid answer. But let me take a shot. Any of 
the threats that we are concerned about at any given time are 
constantly evaluated, and our evaluation compared to others who 
are evaluating the same risk. As I mentioned earlier, lots of 
us receive a lot of those initial intel reports to sort of chew 
on and think about, and that is a good thing, actually, because 
you don't want just one, if you will, leading the way all the 
time.
    So we look at the veracity of the reporting of the 
sourcing, et cetera. We do take into consideration the 
vulnerability of the potential target. We also take into 
consideration the likelihood of the scenario.
    I for one am less concerned at proving the veracity of the 
likelihood because people can be very inventive, and just 
because it doesn't make sense to us doesn't mean it hasn't made 
sense to someone else. So it is a combination of factors that 
lead us to determine those three major areas: the sourcing, the 
vulnerability, and I would also say somewhat along the line of 
the likelihood of this being a situation that is actually 
capable of being executed by the adversary.
    You add the particulars of those together and it gives you 
some sense, at least in my opinion, of what the risk is to that 
potential target.
    Mr. Pearce. That is fair enough. If we look at the 
sourcing, I would suspect that if we looked in Iraq and we 
looked at al Qaeda and their past actions, that might be a 
source. They have had a tendency to blow up refineries and 
pipelines, then we look at the vulnerability of the pipelines. 
There are major pipelines running out of New Mexico into 
California that are significant, in likelihood, again going 
back to their past actions in Iraq.
    I would suspect that TSA has not--and I don't want to make 
statements in an open meeting--I would just think that they 
don't get very high on your vulnerability list on your risk 
assessment. I suspect that pipelines are not in full view. And 
you can either confirm or say that you can't deal with that.
    Mr. Gaches. I would say in this forum, sir, that it 
probably would be best left to a closed session. But at the 
same time, I do want to give you a sense, and it is difficult 
because currently we have concerns about pipelines, and I will 
be happy to give you those details.
    Mr. Pearce. I appreciate that. Then we were discussing the 
local sheriffs and the sharing of information, and I will 
accept that there is probably not much percolation down there. 
But going to your layered approach, that is, trying to stop the 
threats as far away as we can, seems like that you would be 
seeking information from local sheriffs. In other words, the 
local sheriffs at a meeting told me we routinely have people 
that have brown skin and black hair that can't speak a word of 
English or a word of Spanish. They have given themselves a 
Spanish surname, but the chance is they are really Arabic, and 
maybe Middle Eastern, coming in. And yet no one seems to care 
that they are interdicting these people and under the catch-
and-release they are back out.
    They stopped four or five people with Middle Eastern 
accents recently; I mean with Middle European. They felt like 
they were probably from the Soviet Union or something around 
there. And it doesn't seem that anybody is interested. Do you 
at least have an e-mail address where these locals out here can 
share information so that your layered approach can begin to 
utilize scattered, random sightings or information sources? Do 
you have something like that?
    Mr. Gaches. Sir, I would strongly recommend the connection 
there, and we do make use of this information and I am 
personally aware of it being used, if you will. That type of 
information, that scenario that you just described, really 
needs to be reported to the Border Patrol and perhaps the 
Customs, but particularly Border Patrol, because we do get 
reports of those crossings.
    Mr. Pearce. They called Border Patrol and they told them 
they are busy, they would check on it tomorrow. I am telling 
you, the system has broken pretty badly on the border and it 
seems like at some point we would really work on passing this 
information up and down.
    I see my time has gone. Thank you very much.
    Mr. Gaches. Mr. Chairman, if I may comment, happy is 
perhaps not the right word, but I will take that concern back 
and the Border Patrol reaction back to CBP, because we are 
dependent on them to be the ones who are in fact gathering that 
information from the local authorities along the border and 
funneling that into a system that we at TSA can access, and see 
if that plays into, perhaps in this case, a pipeline issue or 
another transportation network issue. So I will take that on to 
get with CBP and hopefully get back to you, sir.
    Mr. Pearce. It may be in transition, but I can tell you in 
the past there has been almost no desire for information from 
local law enforcement officers by CBP. And it begins at the 
interdiction of criminals, and if you are an illegal into 
Mexico and if you commit an illegal act, you are turned loose 
because the judge is not going to convict. In fact, they have 
predescribed limits for illegal drugs. I think it takes 120 
pounds of marijuana to reach the threshold where the judge and 
the system will actually accept the complaint.
    So I am just telling you that sitting here in Washington, 
you may not know how badly the system is disrupted, for 
whatever purposes. It may be in the process of changing, and I 
have good strong hope that it is, because we have had just 
recent visits with Mr. Aguilar. But in the past, it has been 
this way, up until 2 months ago, when we had a last public 
meeting of about 30 different local law enforcement officers 
discussing these various issues, information sharing.
    Again, thank you for your indulgence, Mr. Chairman.
    Mr. Simmons. I want to thank the members of the 
subcommittee and our panelist, Mr. Gaches, for being here 
today. You have an important challenge. You have heard some 
very important concerns expressed from the podium. There will 
be follow-up to what we have discussed here.
    I hear there are going to be votes around 5 o'clock, so we 
want to get our second panel going. But at the same time, I 
want to encourage you, Mr. Gaches, to continue to work hard. We 
are trying to build something here. We are trying to build 
something that will serve to preserve and protect the safety 
and security of our citizens, and, at the same time, protect 
their civil liberties. And this is not easily done. You are 
charged with an important responsibility. So we wish you all 
the best in this endeavor and we look forward to our future 
interactions. And thank you very much for being here today.
    Mr. Gaches. Thank you, Mr. Chairman, Ms. Lofgren, members 
of the subcommittee. And I too look forward to working with you 
in the future, hoping to answer more questions in other 
sessions at your leisure. Thank you again.
    Mr. Simmons. The next panel will be made up of one person, 
Cathleen A. Berrick, Director of Homeland Security and Justice, 
at the U.S. Government Accountability Office. I want to thank 
her for sitting here for several hours and thank her for her 
accommodation. She is a senior executive with GAO's Homeland 
Security and Justice team, and in this position she oversees 
GAO's reviews of aviation and surface transportation security 
matters and has developed a broad knowledge of transportation 
security practices and related Federal policies and Federal and 
private sector roles and responsibilities.
    In the year 2005 she was awarded the William A. Jump 
Memorial Foundation's Meritorious Award for Exemplary 
Achievement in Public Administration. Congratulations for that. 
She has also held previous positions at the Department of 
Defense and in the U.S. Postal Service.
    Welcome. We look forward to hearing your testimony. We will 
ask you to speak for 5 minutes or so. We have your written 
testimony for the record and we look forward to hearing what 
you have to say.

          STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR,
         HOMELAND SECURITY AND JUSTICE, U.S. GOVERNMENT
                     ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you Mr. Chairman, Ranking Member 
Lofgren, and members of the committee for inviting me to 
discuss TSA's Secure Flight program, a program that will match 
airline passenger information against terrorist watch lists to 
identify passengers who should be denied boarding or undergo 
additional security scrutiny prior to boarding a domestic 
flight.
    Secure Flight, which has not yet been fielded, represents a 
practical application of the use of terrorist watch lists and 
the impact that intelligence information and its use has on the 
traveling public. In addition to utilizing terrorist watch 
lists, Secure Flight will also be supported by intelligence 
analysts from TSA and the Terrorist Screening Center, who will 
determine whether potential matches to the watch list are in 
fact actual matches during the prescreening process.
    Currently, prescreening for domestic passengers is 
conducted by air carriers. Air carriers match passenger 
information against information contained in TSA's no fly and 
selectee list, which are provided by TSA prior to passengers 
boarding a flight. Secure Flight is being developed to take 
over the prescreening function from air carriers. By taking 
over this function, TSA will use one common prescreening system 
for all domestic passengers, rather than each carrier using 
their own and sometimes differing systems, as is the case 
today. Secure Flight will also use an expanded terrorist watch 
list during the prescreening.
    My testimony today focuses on the development and oversight 
of Secure Flight, key factors that will influence the program's 
effectiveness, and TSA's coordination with key stakeholders who 
are critical to the program's success. Overall, our work has 
found that TSA faces significant challenges in implementing 
Secure Flight, and that the program was at risk in not meeting 
its goals. Due in part to these issues, TSA announced in 
February that it was halting development of Secure Flight and 
was rebaselining the program. During rebaselining, TSA is 
reassessing the program goals, requirements and schedule, and 
these efforts are ongoing.
    Related to systems development, we found that TSA had not 
conducted critical activities consistent with best practices 
for large-scale IT systems. For example, officials declared the 
design phase of Secure Flight complete before fully defining 
system requirements.
    We also found that TSA must still make key policy decisions 
that will influence the program's effectiveness. These 
decisions include determining what passenger information air 
carriers will be required to collect to support name matching 
and how data quality issues with passenger and terrorist watch 
list information will be mitigated.
    These decisions will influence a number of potential 
matches against terrorist watch lists, the number of passengers 
who may be inappropriately inconvenienced during the 
prescreening process, and the ability of the program to 
appropriately identify individuals actually on the terrorist 
watch list.
    TSA must also determine the level of support needed from 
TSA's Office of Intelligence and the Terrorist Screening Center 
to resolve questionable matches of passenger information to 
terrorist watch lists.
    We also found that TSA has collaborated with key 
stakeholders whose participation is critical to support Secure 
Flight. However, these stakeholders, to include the Terrorist 
Screening Center, have stated they need more information about 
Secure Flight requirements in order to able to support the 
program.
    In light of TSA's rebaselining efforts, two air carriers we 
spoke with were moving forward with making improvement to their 
current passenger prescreening system because they stated they 
were unsure when or if Secure Flight will become operational. 
While these efforts may improve individual systems, the 
modifications could result in further differences that already 
exist among the existing air carriers systems. These 
differences may result in varying levels of effectiveness in 
the name-matching process against terrorist watch lists.
    Since we testified on these issues in February of 2006, in 
addition to rebaselining the program TSA has taken several 
actions to instill more discipline into the development of 
Secure Flight. We are encouraged by these efforts and believe 
TSA should not move forward with implementing the programs 
until these issues are resolved and requirements are defined.
    This concludes my opening statement. I will be happy to 
respond to any questions.
    Mr. Simmons. Thank you very much for the opening statement.
    [The statement of Ms. Berrick follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Simmons. You heard some of the concerns that have been 
expressed by the subcommittee to the previous panelist and I 
guess I would be interested in your assessment of the role in 
the past of TSA Intelligence in cooperating or coordinating 
with the Secure Flight system and whether you think that role 
needs to be enhanced, changed in some fashion, or whether we 
are dealing with a somewhat larger problem involving different 
entities of TSA and the private carriers.
    Ms. Berrick. Thank you. To answer your larger question, I 
think we are dealing with a larger problem that I will talk 
about in a little bit. But with respect to TSA's Office of 
Intelligence role within the current prescreening process right 
now, air carriers are doing the actual matching of names 
against terrorist watch lists. If they conduct a match that is 
questionable, they don't know whether or not this is in fact a 
match, they would contact intelligence analysts at TSA to look 
up additional information to try to determine this person's 
identity.
    If TSA can't make that determination, they will contact the 
Terrorist Screening Center and the Terrorist Screening Center 
would help them do that. So that is the intelligence analyst's 
role right now within the current prescreening process.
    Under Secure Flight, intelligence analysts will still need 
to maintain that role in TSA to resolve potential matches. 
Although TSA is taking over the actual name-matching function, 
they will still run into similar situations where they might 
have a potential match, they are not certain. In those cases, 
we will need to utilize intelligence analysts within TSA to 
make that determination, and, again, if they can't make that 
determination, they will have to work with the Terrorist 
Screening Center.
    But your larger question about this beyond TSA Office of 
Intelligence' It is. There are some overarching issues with 
Secure Flight that need to be addressed. Some of you had asked 
about data quality. That is certainly one important issue both 
with the Terrorist Screening Center's database, the no fly and 
selectee list, but also an issue with passenger data, which is 
the data that is being used to match against the Terrorist 
Screening Center's database.
    There are no standards for collecting passenger data. Each 
air carrier does it a little bit differently. That greatly 
influences the effectiveness of the matching process.
    Another key factor that can influence how effective these 
matches are the matching algorithms or software used to conduct 
the matches. They may try to make a perfect match, as some air 
carriers do, or some will look for name permutations to try to 
account for misspellings in names or things along those lines.
    So all of those policy decisions have yet to be made in 
terms of what passenger data will Secure Flight use, what 
matching algorithms will they use; and all that has the bigger 
impact, I think, on how effective it will be.
    Mr. Simmons. What you are saying is that in some respect 
the approach of the carriers to the problem can affect the 
efficiency with which the system works. And let me ask you 
this. I fly Southwest a lot. Let's say there is a hit. Now, do 
they go back through the system to TSA, to the analyst or to 
the Terrorist Screening Center, if an automated fashion? Is it 
something that is relatively quick because there is 
connectivity, or do they use telephonic systems or other types 
of more cumbersome systems? Where are we on that respect?
    Ms. Berrick. It depends on the individual air carrier. Some 
have better connections than others. But when there is a 
positive match either to the no fly or selectee list, the air 
carriers are required to contact TSA and let them know, and TSA 
in turn will contact the Terrorist Screening Center. So that is 
in place.
    Now, more often than actual matches are questionable 
matches, and in those cases the air carriers again need to 
contact TSA, work with the intelligence analyst, and depending 
on the carrier, that may be electronically, or it may be over 
the phone. But the more frequent contact is when we have these 
potential matches that need additional information from TSA on 
who this individual, is so they can clear them and let them 
board or take the appropriate action such as calling law 
enforcement.
    Mr. Simmons. How effective is the system if somebody buys 
the ticket at the last minute?
    Ms. Berrick. They are still prescreened under the current 
process and will be under Secure Flight. It is envisioned, even 
at the last minute, they would have to get their boarding pass, 
and go through this process. In addition to this prescreen 
process, there are other layers of security, as you know, to 
try to protect aviation security.
    You mentioned buying tickets at the last minute. There are 
other procedures in place that try to augment the current 
prescreening process that would protect against some 
vulnerabilities.
    Mr. Simmons. Thank you. The Chair recognizes the Ranking 
Member.
    Ms. Lofgren. Thank you. I appreciate your testimony and the 
report. Rebaselining, does that mean we are starting over?
    Ms. Berrick. What TSA has told us about rebaselining --
    Ms. Lofgren. Is that a word?
    Ms. Berrick. According to our IT folks at GAO they do 
believe it is a word, and different organizations may define it 
differently. What TSA has told us is that everything is on the 
table with the program. They may make changes, they may not. 
They are going to look at the requirements, look at their 
goals.
    Ms. Lofgren. So they are starting over pretty much. The 
question I have is as we are starting over, it is a new 
opportunity to not make the same mistake over and over again. I 
was very interested in your comments about what this has been 
the history of this Department, where they rush off without 
figuring out what they are doing, and then several years later 
you have to start all over again. Waste of money, waste of 
time, and the Nation has been left unprotected.
    And it sounds like that is what has happened here again, 
without the IT systems being defined, you rush off and do it. 
Same thing happened with the biometrics, how we were going to 
have consistency. Everybody rushed off and we are going to have 
to redo that, I am sure ultimately, to the tune of billions of 
dollars.
    The data quality issues and what information is going to be 
included was not decided upon. And so it seems to me that if 
you could make some recommendations to us and to the Department 
for what could and should be included, that would be enormously 
helpful.
    We got a report in the 108th Congress, I believe, 
suggesting that names alone were never going to cut it. There 
needs to be more than just the raw name. And especially in this 
time of increased identity theft exposure, to use names alone 
is a huge risk, it seems to me.
    So I would appreciate very much if you could tell us right 
now what your recommendation would be as we start from scratch. 
That would be useful. And also if you have any information--Mr. 
Gaches has only been here a short period of time, did not know 
off the top of his head the technology questions. But do they 
have access, for example, to those biometrics or do they not' 
Can you answer those questions?
    Ms. Berrick. In terms of recommendations for TSA as they 
move forward with Secure Flight, the first recommendation that 
we have made to them and I would continue to make is that we 
support this rebaselining effort. We believe they need to 
establish a disciplined and rigorous development process which 
hasn't been in place to date. And TSA has stated that they have 
followed an expedited process in order to field this program 
quickly. We think they need to slow down to define the 
requirements and do this more systematically.
    In terms of determining what data elements they should be 
using to support Secure Flight, we think what TSA needs to do 
is appropriate testing, matching different combinations of 
passenger data against the watch list to determine what results 
in the most effective match. TSA has done some limited testing. 
They have a lot more testing that they need to do before they 
can make that decision.
    And the third point I would make related to TSA moving 
forward is they need to coordinate with their stakeholders, 
with the Terrorist Screening Center, with Customs and Border 
Protection on how this program is going to work and how they 
are going to support it, and also need to make some key policy 
decisions that are going to affect this program.
    Ms. Lofgren. Wouldn't there be some simple things to save 
time' For example, if you have got Sean O'Casey, the IRA guy--
if the person before you is 7 years old, that you don't have to 
go through a big exploration; that the baby is not who you want 
to stop, or the toddler. I mean, just some baseline things just 
to clear this out. Couldn't we use common sense like that?
    Ms. Berrick. TSA, Mr. Gaches was mentioning they have a 
redress office.
    Ms. Lofgren. Not redress, not for the sake of the baby but 
for the sake of the rest of us; that we are not wasting our 
time focusing and spinning our wheels about the toddler.
    Ms. Berrick. The quality related to the Terrorist Screening 
Center database is more, I believe, a TSC issue rather than it 
is TSA. TSC does have some efforts underway to try to improve 
the quality. They are doing a record-by-record review. They 
have some other things in place.
    I think it is important that they move forward. As you 
mention, that will take a while to do. In the meantime, because 
we are applying these watch lists today, we want to make sure 
they are as accurate as they can be. I think the individual 
agencies have a responsibility to make sure they are doing this 
responsibly. And in TSA's case, in the case of Secure Flight, I 
think they can do that by looking at the passenger data that 
they are getting from air carriers, what are they going to 
provide them, and coming up with the appropriate mix and 
software to determine what is going to result in the best 
match, while separately these data quality issues at the 
Terrorist Screening Center are being worked.
    I think they are both important.
    Ms. Lofgren. I will just close by saying my mother always 
used to tell me, take your time and do it right, because it is 
actually quicker than doing it over and over again wrong. Thank 
you very much.
    Ms. Berrick. Thank you.
    Mr. Simmons. Your mother was a very smart lady.
    Mr. Simmons. The chair recognizes the gentleman from New 
Mexico.
    Mr. Pearce. Thank you.
    Do you know what kind of cost has been associated with the 
Secure Flight program up to this date?
    Ms. Berrick. TSA hasn't been able to identify how much 
money they have actually spent on Secure Flight and its 
predecessor programs. We estimate about $120, $130 million but 
that is an estimate. We don't have an exact figure. TSA 
estimates are right in that ballpark, too.
    Mr. Pearce. That is close enough. What is your measure of 
success? In other words, you have got to be--U.S. GAO had to be 
looking with some parameters to decide that the program is not 
reaching success. So what is your measure of success?
    Ms. Berrick. We are looking at a lot of areas related to 
Secure Flight, and we have different criteria for each of those 
areas. Let us take systems development. We are looking at best 
practices for the development of IT systems and measuring TSA 
against that. TSA itself has their own policies for developing 
major IT systems, and we have looked at, what is their criteria 
for developing these types of systems?
    We found that, in the case of Secure Flight, they weren't 
following their own systems development guidance. Instead, they 
had a rapid development approach where some activities were 
conducted out of sequence. They didn't define requirements, and 
we believe that was the cause of what has resulted and some of 
the problems that they are facing right now.
    In other areas, for example in privacy and redress, we are 
looking to what extent they are complying with the Privacy Act, 
the E-Government Act, fair information principles. So each of 
these areas we have specific criteria that we are measuring 
them against, and we are also very open with TSA on what this 
is. We want to help them be successful and are open with how we 
are reviewing this program.
    Mr. Pearce. If we go back to that word successful, helping 
them be successful. Has anyone in the system defined success as 
something other than compliance' In other words, to me, success 
would be not knocking down any airliners for a given period of 
time. So did TSA set this as an objective evaluation that we 
are trying to set up a system that will keep us from losing an 
airliner due to bad passengers doing bad things for the next 
7.2 years or something?
    Ms. Berrick. One of the concerns we raised-- and I think 
your point gets back to requirements-- what do they ultimately 
want this program to achieve' And we found that, over the 3 
years that this program has been in process, the requirements 
have changed. So it hasn't been entirely clear to us what the 
goals of the program were.
    Now, TSA is saying today that they agree with that. They 
know that they need to finalize the requirements before moving 
forward. So, I guess my short answer would be, I don't think 
the goals have been clearly defined, and they have changed 
somewhat over time.
    Mr. Pearce. If we are to just take, take the position that 
it is no aircraft losses due to passenger intervention during 
the next 10 years, I mean, setting aside spelling of names, 
algorithms, privacy rights and all that jazz, which has nothing 
to do with keeping airliners in the air, we are trying to set 
up a system for expediting passengers. And yet we know in 
sleeper cells that they sometimes are deactivated, that humans 
are deactivated for a period of 10 years, 20 years. How in the 
world can you have a program with all the right algorithms and 
spellings of names and all that jazz' How can we do this' I 
mean, it seems ludicrous that we spend the first hundred 
million dollars not even thinking that we want what we want to 
achieve, but the fact that we would go ahead and say, okay, 
just design it right, forget the fact that it can't be done 
because these people that are willing to do these acts of 
terror are willing to put backpacks on their kids and stick 
them in the airplanes and blow them up with I mean, so how why 
are you suggesting to cure the algorithms when it might not be 
a curable question?
    Ms. Berrick. I think that is a very good point. Secure 
Flight is just one specific program of many that TSA has 
implemented to ensure the security of aviation security, and it 
is not intended to be the be all, end all. There are many other 
security layers that TSA pays attention to. So I think it is 
appropriate to put this in the proper context. It is not 
intended to do everything. There are other programs in place, 
but I think that is a very good point, and I agree with that. 
This is just one program, and it should be viewed in that 
context.
    Mr. Pearce. What program is set up to stop the 20-year 
silent nonparticipant and the al Qaeda cell that is waiting to 
just have his number dialed and say, today's your day' What 
program is there to stop that person?
    Ms. Berrick. In addition to intelligence, TSA's building in 
unpredictability into their procedures. For example, in their 
screening procedures at airports, they are making things a 
little bit more unpredictable, and that is geared towards the 
thought that terrorists are going to change their tactics. You 
may not know what the threat exactly is. This is another tool 
that they are using to try to get at those types of points 
where you can't predict where your next threat is, and they 
have got some other efforts underway, too, along those lines.
    Mr. Pearce. Okay.
    Thanks, Mr. Chairman.
    Thanks a lot Ms. Berrick.
    Mr. Simmons. Thank you for those insightful questions. The 
chair recognizes the lady from New York.
    Mrs. Lowey. I thank you, and I thank you for your 
presentation and the new vocabulary that you are sharing with 
us. There was CAPPS I, CAPPS II, now Secure Flight. You say 
that you think we have spent about $120 to $130 million. I can 
think of a lot of good uses for $120 to $130 million. The list 
just gets bigger. There are more errors. Can you give us 
confidence that as a result of--this is called the rebaseline 
assessment. Can you give us confidence that if they are 
rethinking this again, will Secure Flight be any more 
successful' What directives have you given them' Is it worth 
even investing the $120 to $130 million' Perhaps you can 
clarify for me why we, as appropriators, some of us are on this 
committee, should even think about $120 to $130 million when 
the agency can't even figure out what they did with the money' 
And it is puzzling to me how you who are auditing it can even 
find the money. So should we go ahead with this' I think we are 
all saying this in different iterations because it is so 
puzzling.
    Ms. Berrick. Thank you. To first relate it to the benefits 
of Secure Flight. You asked whether or not we should be moving 
forward with this.
    Mrs. Lowey. No. No. I think it is important, but do you 
have any confidence that one strike, two strike, here we go 
again, that they are going to spend the money any better' Just 
give us confidence with the directives that you would offer 
them, that this can be accomplished and at what price?
    Ms. Berrick. Since TSA initiated their rebaselining 
efforts, we have seen some very positive steps. They brought in 
new leadership responsible for the program. They brought in 
people with information systems credentials that they didn't 
always have prior to that. There has been a commitment from the 
head of TSA, Kip Hawley, that he really wants to do this right. 
He wants to slow down. This is an important program. He is 
going to build this with discipline and rigor. Based on hearing 
GAO's concerns, Kip Hawley actually initiated an special review 
of the program, identified the same issues pretty much that we 
have identified, and that is why they are rebaselining the 
program. So in terms of the history of this program, I have 
seen very positive steps lately that are encouraging, and I am 
looking forward to when TSA completes this rebaselining effort 
to see how they are going to move forward, but I have seen some 
very positive actions since the rebaselining was announced.
    Mrs. Lowey. Could you discuss the oversight procedures that 
have been put in place, so a year from now, you can tell us, 
yes, they have spent the money, be it-- I hate even to think--
$100 to $300 million?
    Ms. Berrick. The fiscal year 2006 appropriation legislation 
requires that GAO report on Secure Flight 90 days after DHS 
certifies that the system has satisfied its requirements that 
are spelled out in legislation. So GAO is statutorily mandated 
to report on the program once TSA certifies that they have met 
these requirements. So we will be issuing report or testifying 
on those results at some point in the future after TSA 
certifies the system, and we are continuing to review the 
program based on other requests that we have gotten from 
various committees. So we have a continual presence looking at 
Secure Flight. After they certify the system, we will be 
reporting on it.
    Mrs. Lowey. I have found, Mr. Chairman, that as Members of 
Congress, be it appropriators or not, we look to GAO when all 
else fails. I guess what I am trying to understand is, do you 
feel there are appropriate accounting procedures in place as 
the process moves forward' Or are we going to have to depend on 
your oversight to make sure that TSA is spending the money 
appropriately?
    Ms. Berrick. I think there needs to be several oversight 
mechanisms, and GAO is one. There are also oversight mechanisms 
at the Department of Homeland Security level. They have an 
investment review board where they look at these types of 
programs. They are becoming more involved in Secure Flight. 
That is a level of oversight. There are also some independent 
groups that are made up of TSA employees and private sector 
people that provide advice and counsel to TSA on the program. 
And in addition, there are often congressional hearings, 
oversight hearings on Secure Flight and related programs. Most 
recently before the Senate Commerce Committee in February, TSA 
and GAO testified on these same issues so. So there seems to be 
some various mechanisms for oversight, and I think it is 
important to have all of those as TSA moves forward.
    Mrs. Lowey. Is that same oversight procedure, the same as 
the one that was in place with the CAPPS I, CAPPS II?
    Ms. Berrick. We were--GAO specifically was mandated to look 
at CAPPS II. The requirement was a little bit different. That 
required us to report on the program essentially once every 
year. It wasn't driven by when TSA certified it. So we were so 
essentially providing a status update once a year under the old 
legislation.
    Mrs. Lowey. Well, thank you, Mr. Chairman. I do hope we can 
get something that is tangible and that works out of this 
program; $100 to $130 million is a lot of money, and we can 
think of many uses for it. So thank you very much.
    And thank you, Mr. Chairman.
    Ms. Berrick. Thank you.
    Mr. Simmons. I thank the gentlelady from New York for her 
continued interest and rigorous oversight activities on these 
issues. She, like me, shares the memories of 9/11 and probably 
lost many constituents on that day. So this is something that 
we all have a deep concern for.
    I appreciate your testimony. There will be a follow up on 
this hearing. We will make an effort to pull together the TSA, 
the TSC and the CBP into one room, and bring members in and see 
if we can get our arms around this a little bit, a little bit 
better.
    So I thank all of my colleagues for their participation.
    I thank you, Ms. Berrick, for your testimony. Members will 
have I believe 5-10 working days to submit additional questions 
and comments for the record. And there being no further 
business, without objection the committee stands adjourned.
    Ms. Berrick. Thank you, Mr. Chairman.
    Mr. Simmons. Thank you.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
